<html>
<title> - CREATING AN INTEROPERABLE PUBLIC SAFETY NETWORK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






            CREATING AN INTEROPERABLE PUBLIC SAFETY NETWORK

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2011

                               __________

                           Serial No. 112-51


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-992 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                     Chairman
JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California           BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina   DIANA DeGETTE, Colorado
  Vice Chairman                      LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma              MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee          JAY INSLEE, Washington
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                ANTHONY D. WEINER, New York
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin Islands
BILL CASSIDY, Louisiana                  
BRETT GUTHRIE, Kentucky                   
PETE OLSON, Texas                         
DAVID B. McKINLEY, West Virginia          
CORY GARDNER, Colorado                    
MIKE POMPEO, Kansas                       
ADAM KINZINGER, Illinois                  
H. MORGAN GRIFFITH, Virginia         
                                  (ii)


             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY,                           ANNA G. ESHOO, California
  Vice Chairman                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               DORIS O. MATSUI, California
MARY BONO MACK, California           JANE HARMAN, California
MIKE ROGERS, Michigan                JOHN BARROW, Georgia
BRIAN P. BILBRAY, California         DONNA M. CHRISTENSEN, Virgin 
CHARLES F. BASS, New Hampshire           Islands
MARSHA BLACKBURN, Tennessee          EDOLPHUS TOWNS, New York
PHIL GINGREY, Georgia                FRANK PALLONE, Jr., New Jersey
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan
ADAM KINZINGER, Illinois             HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio









                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, prepared statement.................................   113
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   113

                               Witnesses

Joseph R. Hanley, Vice President, Technology, Planning and 
  Services, Telephone and Data Systems...........................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................   114
Chris Imlay, General Counsel, American Radio Relay League........    27
    Prepared statement...........................................    29
Paul Steinberg, Chief Technology Officer, Motorola Solutions, 
  Inc............................................................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................   123
Dennis Martinez, Chief Technology Officer, Harris RF 
  Communications Division........................................    55
    Prepared statement...........................................    58
    Answers to submitted questions...............................   149
Jeffrey D. Johnson, Chief Executive, Western Fire Chiefs 
  Association, on Behalf of the Public Safety Alliance...........    66
    Prepared statement...........................................    68
    Answers to submitted questions...............................   159
Joseph L. Hanna, President, Directions...........................    74
    Prepared statement...........................................    76
    Answers to submitted questions...............................   200

 
            CREATING AN INTEROPERABLE PUBLIC SAFETY NETWORK

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Terry, Stearns, 
Shimkus, Bilbray, Bass, Gingrey, Scalise, Latta, Kinzinger, 
Barton, Upton (ex officio), Eshoo, Doyle, Matsui, Barrow, 
Christensen, Towns, Dingell, and Waxman (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Neil Fried, Chief Counsel, Communications and 
Technology; Debbee Keller, Press Secretary; David Redl, 
Counsel, Telecom; Tim Torres, Deputy IT Director; Alex Yergin, 
Legislative Clerk; Charlotte Baker, Press Secretary; Phil 
Barnett, Democratic Staff Director; Shawn Chang, Democratic 
Counsel; Jeff Cohen, Democratic FCC Detailee; Sarah Fisher, 
Democratic Policy Analyst; and Roger Sherman, Democratic Chief 
Counsel, Communications and Technology.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I call the hearing to order. Good morning 
everyone and welcome. We are here this morning to have a 
productive discussion of how spectrum policy can advance public 
safety, promote broadband, generate revenue for the U.S. 
Treasury, and create jobs. This hearing will focus on how we 
can bring new and innovative tools to our Nation's first 
responders.
    Look, we all share the goal of providing America's first 
responders with a state-of-the-art communications network. We 
are by no means the first Congress to attempt to bring public 
safety these tools. Interoperable public safety communication 
has been an objective of this country since even before the 
tragic events of September 11 of 2001. Yet even though Congress 
and the FCC have tried time and again to provide the tools and 
impetus to make this a reality, today's public safety users are 
only marginally closer to the interoperable communications they 
need. We are here to get it right this time.
    Now, what we are not here to do is to point fingers for 
past failures. Nobody doubts the good intentions and the hard 
work of those who have worked on this issue in the past. But 
the fact remains we have not been successful. Today's hearing 
gives us an opportunity to hear the lessons of the public 
safety community, the wireless sector, and the engineers who 
make wireless networks work. Taking the innovation and 
expertise of the wireless industry alongside the bravery and 
knowledge of the public safety community, we can all work to 
provide needed resources to both.
    The successful creation and management of an interoperable 
public safety network will need to focus on four elements: 
spectrum, equipment, governance, and funding.We have provided 
public safety with nearly 100 megahertz of spectrum for their 
exclusive use. Given that fact, it is strange to me that the 
debate on public safety communications has been so focused on 
the 700 megahertz D Block. Public safety has more spectrum than 
the vast majority of wireless providers, who, as it is oft 
cited, provide a 16-year-old customer with more capabilities 
than those available to our first responders. As recently as 
our 2005 DTV legislation, Congress cleared 24 megahertz of 
spectrum for an interoperable public safety network. Yet 6 
years later, that spectrum lays woefully underused. In fact, 
far from providing next-generation interoperable services, more 
than half of that spectrum has been dedicated to the legacy, 
narrowband voice communications that NYPD Deputy Chief Charles 
Dowd called ``extremely limited'' at our April hearing. 
Clearly, something in our approach isn't working. Could we be 
better using that 24 megahertz for the broadband network that 
public safety needs?
    Congress has also tried to address the finances of a public 
safety network. Chairman Upton's amendment to the 2005 DTV 
legislation provided $1 billion to public safety to help defray 
the cost of radios, and, according to the Congressional 
Research Service, more than $13 billion in Federal funds have 
been invested in public safety communications since 9/11. So I 
look forward today to hearing how these resources have been 
used to further their intended goals and what we can learn from 
how those funds were spent.
    Now, the last piece of this equation--the governance of the 
network--may indeed be the most difficult and yet most critical 
part. We need to figure out how this network should be built, 
operated, and maintained. I continue to support the idea of a 
public/private partnership between commercial wireless 
providers and public safety to address first responders' needs. 
Initial FCC efforts to hardwire such a partnership into the 
auction of the D Block, however, failed to find a commercial 
provider sufficiently interested in purchasing the license. 
This failure is widely attributed to poor auction design that 
asked bidders to sign up for a vaguely defined obligation to 
negotiate with the Public Safety Spectrum Trust--an entity 
created to govern the use of the 24 megahertz spectrum for 
public safety. We should continue to examine better ways of 
creating a public-private partnership.
    Public safety radio networks have traditionally been 
characterized by local control of nearly all elements of the 
network, from choosing the equipment vendors to oversight of 
the standards evolution. It is our goal to create a nationwide, 
interoperable network, this kind of local communications 
fiefdom cannot continue to dominate the public safety 
communications debate.
    We need to find the right balance between local input and 
national coordination. That is why I am glad to see the Public 
Safety Alliance has provided us a witness for the second 
consecutive hearing on this topic. The Public Safety Alliance 
represents a sweeping scope of public safety entities working 
together toward a common goal, and interoperable communications 
will require a level of coordination far above the local police 
and fire chiefs, and a level of wireless expertise that, 
frankly, few can provide.
    To that end, I believe that any governance structure for 
public safety communications should recognize the nationwide 
scope of this critical issue and the incredible pace of 
innovation in the wireless communications sector. Public safety 
wireless devices have begun to lag behind the capabilities 
available to commercial users. The end result has been 
firefighters and police officers relying on their personal 
wireless devices sometimes in times of emergency. That is not 
what we want. This cannot be the ``new normal'' for America's 
first responders.
    I thank the witnesses for their participation today. I 
think I can speak for all of us when I say we thank each of you 
for your commitment to increasing public safety and look 
forward to a vibrant discussion of the communications needs of 
America's first responders. With that I yield to the gentlelady 
from California, Ms. Eshoo, for her opening statement.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    We're here this morning to have a productive discussion of 
how spectrum policy can advance public safety, promote 
broadband, generate revenue for the U.S. Treasury, and create 
jobs. This hearing will focus on how we can bring new and 
innovative tools to our Nation's First Responders.
    We all share the same goal: providing America's first 
responders with a state-of-the-art communications network. We 
are by no means the first Congress to attempt to bring public 
safety these tools. Interoperable public safety communication 
has been an objective of this country since even before the 
tragic events of September 11. Yet even though Congress and the 
FCC have tried time and again to provide the tools and impetus 
to make this a reality, today's public safety users are only 
marginally closer to the interoperable communications they 
need. We're here to get it right this time.
    What we are not here to do is point fingers for past 
failures. Nobody doubts the good intentions and hard work of 
those who have worked on this issue in the past. But the fact 
remains, we have not been successful. Today's hearing gives us 
an opportunity to hear the lessons of the public safety 
community, the wireless sector, and the engineers who make 
wireless networks work. Taking the innovation and expertise of 
the wireless industry alongside the bravery and knowledge of 
the public safety community, we can all work to provide needed 
resources to both.
    The successful creation and management of an interoperable 
public safety network will need to focus on four elements: 
spectrum, equipment, governance, and funding.
    We have provided public safety with nearly 100 MHz of 
spectrum for their exclusive use. Given that fact, it is 
strange to me that the debate on public safety communications 
has been so focused on the 700 MHz D block. Public safety has 
more spectrum than the vast majority of wireless providers, 
who, as it is oft cited, provide 16-year-old customers with 
more capabilities than those available to our First Responders. 
As recently as our 2005 DTV legislation, Congress cleared 24 
MHz of spectrum for an interoperable public safety network. Six 
years later, that spectrum lays woefully underused. In fact, 
far from providing next-generation interoperable services, more 
than half of that spectrum has been dedicated to the legacy, 
narrowband voice communications that NYPD Deputy Chief Charles 
Dowd called ``extremely limited'' at our April hearing. Clearly 
something in our approach is not working. Could we be better 
using that 24 MHz for the broadband network public safety 
needs?
    Congress has also tried to address the finances of a public 
safety network. Chairman Upton's amendment to the 2005 DTV 
legislation provided $1 billion to public safety to help defray 
the cost of radios and according to the Congressional Research 
Service more than $13 billion in Federal funds have been 
invested in public safety communications since 9/11. I look 
forward today to hearing how these resources have been used to 
further their intended goals and what we can learn from how 
those funds were spent.
    The last piece of this equation--the governance of the 
network--may indeed be the most difficult and the most 
critical. We need to figure out how this network should be 
built, operated, and maintained. I continue to support the idea 
of a public/private partnership between commercial wireless 
providers and public safety to address First Responders' needs. 
Initial FCC efforts to hard-wire such a partnership into the 
auction of the D block, however, failed to find a commercial 
provider sufficiently interested in purchasing the license. 
This failure is widely attributed to poor auction design that 
asked bidders to sign up for a vaguely defined obligation to 
negotiate with the Public Safety Spectrum Trust--an entity 
created to govern the use of the 24 MHz of public safety 
spectrum. We should continue to examine better ways of creating 
a public-private partnership.
    Public safety radio networks have traditionally been 
characterized by local control of nearly all elements of the 
network, from choosing the equipment vendors to oversight of 
the standards evolution. If our goal is to create a nationwide, 
interoperable network, this kind of local communications 
fiefdom cannot continue to dominate the public safety 
communications debate. We need to find the right balance 
between local input and national coordination. That's why I am 
glad to see that the Public Safety Alliance has provided us a 
witness for the second consecutive hearing on this subject. The 
Public Safety Alliance represents a sweeping scope of public 
safety entities working together toward a common goal, and 
interoperable communications will require a level of 
coordination far above the local police and fire chiefs, and a 
level of wireless expertise that few can provide.
    To that end, I believe that any governance structure for 
public safety communications should recognize the nationwide 
scope of this critical issue and the incredible pace of 
innovation in the wireless communications sector. Public safety 
wireless devices have begun to lag behind the capabilities 
available to commercial users. The end result has been 
firefighters and police officers relying on their personal 
wireless devices in times of emergency. This cannot be the 
``new normal'' for America's first responders.
    I thank the witnesses for their participation today and I 
think I can speak for all of us when I say we thank you for 
your commitment to increasing public safety and look forward to 
a vibrant discussion of the communications needs of America's 
first responders.

OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for having this very 
important hearing and to all the witnesses that are here today. 
I can't help but think that the most common occurrence in our 
hearings is that we're hearing from the private sector. But at 
each table here, ours and yours, we are all public servants for 
the most part in this. And the importance of what we do and 
what needs to be built simply cannot be underscored enough. 
This has great significance to our country, the creation of an 
interoperable public safety network.
    We are approaching the 10th anniversary of the horrific 
attack on our country. It's not a source of pride to any of us 
that first responders remain unable to seamlessly communicate 
with each other. The attacks on 9/11, Hurricane Katrina, and 
the shootings at Virginia Tech are among the incidences that 
remind us why we need a robust, next-generation public safety 
network. We owe it to our first responders. You put your lives 
on the line for our country, for our communities every single 
day. So there has to be a 21st Century network that's put 
together so that you can really carry out what you do so well.
    Over the past several years, we've grappled with the 
question of how to best build and maintain such a network. 
Should we reallocate the D Block or auction the spectrum and 
use the proceeds to build out a public safety network as the 
FCC's national broadband plan recommended last year? I've given 
this question significant thought. And I think the plan we 
commit to must be properly funded, which is a big thing. It's a 
simple phrase but it needs to be properly funded. And use the 
spectrum available to its maximum efficiency and bring forward 
the expertise of those in the telecommunications sector as 
well.
    We have one chance to build this network and we need to do 
it right. I don't want to have to revisit this. I don't want 
you to come in and say it's broken. Congress does things and if 
the legislation doesn't get it right, we don't get back to it 
for at least another decade, and I don't think we can afford to 
do that at this stage in the life of our country.
    I think the recent draft discussion by Senators Rockefeller 
and Hutchison offers a well thought out proposal that should be 
given consideration within this committee. I strongly believe 
that we have to leverage the strength of the private sector and 
establish an independent entity that has the responsibility for 
building and overseeing the network. I believe that public 
safety in our country are expert at public safety. But I also 
think that there are expertise that needs to be brought to 
public safety that you simply don't possess. I mean there are 
some that may know something about it, but our private sector 
can really be highly instructive in this.
    I want to hear from our witnesses today on how much 
spectrum is really needed, what are the next-generation 
applications that first responders expect to use, and are there 
opportunities to use some of the spectrum to support commercial 
broadband networks? We should also give significant 
consideration to the devices that public safety will use once a 
network is built.
    By one estimate, approximately 80 percent of the public 
safety narrowband equipment market is held by one company. Last 
Congress I joined with Representatives Harmon and Shimkus as a 
cosponsor of the Next-Generation Public Safety Device Act, 
which would address this serious problem. Spectrum is the 
foundation for any national public safety network, but without 
a competitive device market, our efforts to achieve 
interoperability and lower the cost of public safety devices 
could be blocked. We're planning to introduce this legislation 
and I would ask the chairman that it be considered as part of 
the comprehensive public safety bill that this committee agrees 
to.
    As we work on the needs of our first responders, we can't 
forget about our Nation's 9-1-1 call centers, which are often 
the first line of defense for those in distress. Every day, 9-
1-1 call centers receive more than 650,000 calls across the 
country. A next-generation 9-1-1 system will enable first 
responders to receive photos, video, and text messages, which 
can improve the quality and the speed of emergency response. I 
think this all needs to be integrated. These upgrades should be 
incorporated into comprehensive public safety legislation.
    So I thank all the witnesses that are here today for not 
only being here today to give us your testimony and your views 
but also to the public safety chieftains of our country for 
what you do for our communities and our country day in and day 
out. I think that you are real heroes of our country. And in 
response to your needs, I think that we can produce a 
bipartisan, bicameral legislation that will honor your work and 
give you the necessary tools to operate a robust interoperable 
communication network for our country.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Walden. Thank you. And now I recognize the chairman of 
the full committee, who has put an enormous amount of work into 
this issue over many years, Mr. Upton, for his statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. And I share Ms. 
Eshoo's enthusiasm and Mr. Walden's as well by putting together 
a bipartisan plan that really gets to the finish line.
    And today's hearing, as we know, is focused on the 
technology and the expertise needed to produce an interoperable 
communications network for our Nation's first responders. This 
is by no means the first hearing on this issue, nor the first 
attempt by Congress to give public safety the tools needed to 
make interoperability a reality.
    The '05 DTV legislation cleared a 24 megahertz block of 
spectrum nationwide for the public safety's exclusive use--a 
key recommendation of the 9/11 Commission. I proposed the 
amendment that was successful and worked with my friend Mr. 
Stupak to that legislation that provided $1 billion for 
interoperable equipment. In all, CRS reports that public safety 
has been given $13 billion dollars from the Federal Government 
for radio equipment since 2001. But despite those tools, the 
interoperable network still remains elusive.
    The question is what will bring us closer to making 
interoperable voice and broadband communications a reality? 
Some say we should reallocate the D Block. But current law 
requires that spectrum to be auctioned and doing otherwise 
would create roughly a $3 billion hole in the budget that most 
of us know that we cannot afford.
    So today we will discuss ways to meet public safety's 
technological needs while leveraging the competition and 
innovation that have characterized the commercial wireless 
marketplace. The dialogue is a critical component of a winning 
public safety strategy. America's commercial wireless providers 
are world leaders in technology for sure, spectrum efficiency, 
and innovative services. Cooperation between the robust 
commercial sector and the critical public safety sector will 
not only permit each to focus on what they do best, but will 
make both sectors stronger in the tough economy. I now yield to 
Mr. Barton.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing is focused on the technology and expertise 
needed to produce an interoperable communications network for 
our nation's first responders. This is by no means the first 
hearing on this issue, nor the first attempt by Congress to 
give public safety the tools needed to make interoperable 
communications a reality.
    The 2005 DTV legislation cleared a 24 MHz block of spectrum 
nationwide for public safety's exclusive use--a key 
recommendation of the 9/11 Commission. I proposed the amendment 
to that legislation to provide $1 billion for interoperable 
equipment. In all, CRS reports that public safety has been 
given $13 billion dollars from the federal government for radio 
equipment since 2001.
    Despite these tools, public safety's interoperable network 
still remains elusive.
    The question is, what will bring us closer to making 
interoperable voice and broadband communications a reality? 
Some say we should reallocate the D block. But current law 
requires that spectrum to be auctioned and doing otherwise 
would create a roughly $3 billion dollar hole in the budget 
that we cannot afford.
    Today we will discuss ways to meet public safety's 
technological needs while leveraging the competition and 
innovation that have characterized the commercial wireless 
marketplace. This dialogue is a critical component of a winning 
public safety strategy. America's commercial wireless providers 
are world leaders in technology, spectrum efficiency, and 
innovative services. Cooperation between the robust commercial 
sector and the critical public safety sector will not only 
permit each to focus on what they do best, but will make both 
sectors stronger in this tough economy. I thank the witnesses 
and look forward to their testimony.

    Mr. Barton. Thank you, Chairman Upton. This is a very 
important issue. It is a very vexing issue. I mean we can say 
that back in 2001 there was a legitimate excuse not to have an 
interoperable network, but 10 years later, and as Chairman 
Upton just pointed out, $13 billion being spent at the federal 
level, the Digital Transition Act, which I helped pass when I 
was chairman that freed up 24 megahertz of spectrum for the 
public sector, I don't see that there is any real excuse to not 
have an interoperable network. And I am not sure it is a 
spectrum issue.
    In my congressional district in my home county, my firemen, 
policemen, sheriff's department have double-digit number of 
systems, very few of whom communicate with each other. It is 
not a lack of spectrum. It may be lack of funding at the local 
level. But, you know, this is an important hearing.
    As the subcommittee chairman said, we need to get the 
policy right, but we also need some honest answers from our 
witnesses about what is going on in the real world. So I 
appreciate the opportunity to be here and I appreciate the full 
committee chairman and the subcommittee chairman giving this a 
priority. And I yield to Congressman Terry of Nebraska.
    [The prepared statement of Mr. Barton follows:]

                 Prepared statement of Hon. Joe Barton

    Thank you, Mr. Chairman, for bringing a comprehensive panel 
before the committee to discuss a very important topic: 
spectrum. I would like to thank all of our witness for being 
here today, and I look forward to hearing from them.
    The discussion of ``how to best use our spectrum'' is one 
that I know all too well. As Chairman of this committee, I had 
the privilege of ensuring that broadcast spectrum was cleared 
for public safety and wireless broadband uses through the 
passage of the Digital Television Transition and Public Safety 
Act of 2005 (DTV). I heard from many public safety witnesses on 
the importance of spectrum and the increased need for more 
spectrum. The DTV legislation passed during the 109th Congress, 
provided public safety with 24 MHz of spectrum, and made 
available an additional 10 MHz of spectrum for commercial use 
in the D-block.
    I believe that before we allocate more spectrum, we should 
look at the efficiency and current usage of the available 
spectrum. It is to my disappointment to learn that public 
safety officials have not effectively used the spectrum 
allocated to them. We have yet to see a concrete plan of a 
nationwide public safety network, but we hear that there is a 
need for more spectrum. As for wireless broadband, I understand 
that there has been a major increase in demand from our 
consumers, but there is still unallocated spectrum available 
that has yet to be successfully auctioned. I hope to gain a 
better understanding of why this is the case from this hearing.
    I yield back.

    Mr. Terry. Thank you. Mr. Chairman, I don't think anyone 
here doesn't share in the same goal of an interoperable system, 
but it is confusing to me as we sit here 5, 6 years after 
supposedly putting us on a road to interoperable that we spent 
$13 billion, we provided 24 megahertz, and now we are being 
told that to solve this problem, we need more money, more 
spectrum, and new governance by way of a new government agency, 
bureau, whatever we want to call it. Frankly, I don't think any 
of those solve the problems. I don't know what the problem is. 
But that is why we are having these hearings.
    If you aren't using the 24 megahertz properly or 
efficiently, why would we give you 10 more? It doesn't make 
sense to me. If 13 billion hasn't solved the problem, then what 
is? These seem to be overly simplistic requests to solve a 
problem. I think the problems are much deeper than this.
    The second point I want to make is we have been pushed, 
continually asked why don't we just take up the Senate bill? 
Well, the Senate bill I don't think really attacks or goes to 
the problem. And I am not going to apologize. I will defend 
what this subcommittee is doing is deemed diligent, asking the 
tough questions and trying to find the right answers to solve 
this problem. That is what our job is. And so I want to thank 
our subcommittee chairman and our full committee chairman for 
being diligent. Yield back.
    Mr. Walden. The gentleman's time has expired. We will now 
go to the witnesses.
    Mr. Waxman. Mr. Chairman?
    Mr. Walden. Oh, I am sorry. We won't go to the witnesses. 
We will go to Mr. Waxman. My apologies. We now go to Mr. Waxman 
for----

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for 
recognizing me. We have to be diligent, but we have to do more 
than that. We have got to solve this problem.
    The 10th anniversary of 9/11 is approaching within a few 
months. Our goal should be to have legislation on the 
President's desk to provide public safety with nationwide 
interoperable broadband before then as a tribute to the brave 
first responders who risked their lives to save others.
    Although there is a broad agreement that we need to get 
this done, there are different views on the best way forward. 
Some want the FCC to auction the D Block to a wireless provider 
and encourage collaboration between the winning bidder and 
public safety. Others want Congress to reallocate the D Block 
to public safety. Both approaches could work, but recent 
developments appear to favor reallocation. The reallocation 
approach is strongly preferred by public safety leaders and 
President Obama, and it has bipartisan support in the House and 
the Senate.
    In particular, I want to commend Senator Rockefeller and 
Senator Hutchison for their leadership. Senator Rockefeller has 
been a tireless champion of the reallocation approach and has 
put forth a discussion draft with Senator Hutchison that is 
worthy of our careful consideration. Their bipartisan draft 
goes a long way towards addressing concerns about governance, 
accountability, interoperability, and how we pay for the public 
safety network.
    Last month, I approached Chairman Upton and Chairman Walden 
and suggested that we emulate our Senate counterparts and work 
together on a bipartisan House bill that would provide for a 
nationwide public safety network and make new spectrum 
available through incentive auctions. I hope they will take us 
up on this offer.
    I appreciate the fact that doing this right is complex and 
challenging. But with the 10th anniversary fast approaching, we 
need to settle on a path forward and move quickly and the only 
way that is going to happen is if we do it together on a 
bipartisan basis. There is no reason why Congress cannot act 
before this somber anniversary.
    This hearing is an important step in this process. We have 
a panel of distinguished experts before us today, and I look 
forward to their testimony.
    Mr. Chairman, I want to yield the balance of my time to my 
colleague from California, Ms. Matsui.
    Ms. Matsui. I thank the ranking member for yielding to me. 
And I also would like to thank the witnesses for being with us 
today.
    This is our second hearing on spectrum this year, and I 
understand we will have a third next week. As we continue to 
consider spectrum policy, it is my hope that some of the 
outstanding issues out there will be answered so we can move 
forward and determine how best to proceed in a bipartisan 
manner. I plan to follow up on my questions from the last 
spectrum hearing we had last month regarding who will govern 
and oversee the public safety network that would ultimately 
possess significant responsibilities. It will have 
responsibility over highly valuable spectrum and significant 
public funding, not to mention needing to ensure the success of 
this vitally important network for first responders.
    That being said, we must provide public safety with 
interoperable capabilities they need and deserve to protect our 
Nation during challenging times. We are all very cognizant as 
we approach the 10th anniversary of the tragic events of 
September 11. It is not acceptable that our Nation does not 
have a public safety communications system with a nationwide 
level of interoperability in place. More recently, we are 
seeing how tragic events such as the tornadoes in the Midwest 
have hampered emergency communication efforts in some areas.
    While we debate the merits on how to fund and construct a 
nationwide public safety system, we can all agree that we must 
find a path that provides the funding required to build an 
interoperable system that fulfills the needs and securities of 
our public safety goals. We must also do it in a fiscally 
responsible manner. It won't be easy but we must get there, and 
we must get there soon.
    I thank you, Mr. Chairman, for holding this important 
hearing, and I yield back the balance of my time.
    Mr. Walden. I thank the gentlelady. We will move on now to 
the witnesses, get this order right.
    We will start with Mr. Steinberg. We appreciate your 
willingness to come and testify, the chief technology officer 
for Motorola Solutions. Sir, you know how to use a microphone. 
Yes, if anybody can't figure out the microphones, that is going 
to be at least a 2-meg penalty on your spectrum.
    Mr. Steinberg, go ahead.
    Mr. Steinberg. Thank you, Chairman Walden, Ranking Member 
Eshoo, and others members of the subcommittee.
    Mr. Walden. But I think you actually have to push it. Does 
it light up?
    Mr. Steinberg. Yes, is green go?
    Mr. Walden. You may have to get a little close to these 
microphones.
    Mr. Steinberg. Is that OK?
    Mr. Walden. No.
    Mr. Steinberg. The right green button?
    Mr. Walden. No.
    Mr. Steinberg. No?
    Mr. Walden. Maybe we should grab that other microphone. Why 
don't you just grab Mr. Martinez's microphone if it will move 
there. Maybe we can get our technical people in here and rewire 
the whole process.
    Mr. Steinberg. Is that working? How is that?
    Mr. Walden. Get real close.
    Mr. Steinberg. Hello?
    Mr. Dingell. Try and use your big boy voices.
    Mr. Steinberg. It is also----
    Mr. Walden. Well, exactly. Yes. No, we got to get a 
microphone that works here. Mr. Hanley, will you try your 
microphone? Why don't we start with Mr. Hanley and we will have 
our technical operations officers come and fix Mr. Steinberg's 
microphone and Mr. Martinez's microphone.
    Mr. Upton. Mr. Chairman, we may be able to set an example 
by sharing if we can't get it to work.
    Mr. Walden. Yes, right. So let us go to Mr. Hanley first 
while we get the mikes fixed. Vice president, Technology, 
Planning, and Services for Telephone and Data Services. Mr. 
Hanley, please go ahead.

  STATEMENTS OF JOSEPH R. HANLEY, VICE PRESIDENT, TECHNOLOGY, 
PLANNING AND SERVICES, TELEPHONE AND DATA SYSTEMS; CHRIS IMLAY, 
 GENERAL COUNSEL, AMERICAN RADIO RELAY LEAGUE; PAUL STEINBERG, 
  CHIEF TECHNOLOGY OFFICER, MOTOROLA SOLUTIONS, INC.; DENNIS 
 MARTINEZ, CHIEF TECHNOLOGY OFFICER, HARRIS RF COMMUNICATIONS 
  DIVISION; JEFFREY D. JOHNSON, CHIEF EXECUTIVE, WESTERN FIRE 
 CHIEFS ASSOCIATION, ON BEHALF OF THE PUBLIC SAFETY ALLIANCE; 
              AND JOE HANNA, PRESIDENT, DIRECTIONS

                 STATEMENT OF JOSEPH R. HANLEY

    Mr. Hanley. Thank you. Chairman Walden, Chairman Upton, 
Ranking Member Eshoo, Ranking Member Waxman, and members of the 
committee, thank you for the opportunity to provide U.S. 
Cellular's perspectives on this important issue. Today's topic 
is of great importance to all of us as citizens who rely on our 
first responders for our safety and as consumers and businesses 
that need mobile broadband to create jobs and compete in the 
global economy.
    The public interest requires a strategy that can deliver on 
both of these goals. First, we must provide nationwide 
interoperable broadband services for public safety. This 
network must serve the entire Nation, not just a few select 
communities, and it must be provided at the lowest cost to 
taxpayers by leveraging commercial operators' networks, 
capabilities, and shared use of the spectrum, as well as 
harnessing market forces to reduce the cost of devices and 
equipment.
    Second, we must expand competitive broadband services for 
consumers. Broadband is a powerful catalyst for economic 
growth. However, spectrum is increasingly concentrated in the 
hands of a few carriers, and more spectrum is needed to ensure 
the availability of advanced services, competition, and 
consumer choice.
    The good news is that these two goals are highly 
complementary, and your decision does not have to be couched as 
for one and against the other. Shared networks and shared use 
mean lower costs and better services for all users of the 
network. Also, the D Block and the public safety block share 
the same band class, band class 14 in the LTE standard.
    In today's world, public safety agencies may pay several 
thousand dollars for a single handset that works on public-
safety-only networks. The economies created by combined the 
commercial and public safety user base will drive cost-
effective equipment for this band and enable public safety to 
benefit from the ongoing innovation driven by the commercial 
market.
    FCC studies also point to the benefits of the shared 
network approach. An FCC white paper concluded that a stand-
alone public safety network would cost as much as $20 billion 
more by failing to leverage commercial resources and 
technologies.
    Now, a casual observer of this protracted debate might 
conclude that it all boils down to a binary choice between 
holding an auction for D Block licenses versus reallocating the 
spectrum to public safety. In fact, neither approach ensures 
nor precludes the optimal network build and operation. Rather, 
each approach requires that Congress and the FCC adopt a 
framework promoting regional partnerships that leverage the 
best commercial networks in each area.
    This framework must ensure that (1) sufficient funding is 
available to build and operate and maintain a high quality 
network in rural and urban areas; (2) public safety enters into 
partnerships with commercial operators that leverage the 
experience and network assets of those operators; (3) the 
network is designed to be fully interoperable and is deployed 
and used with spectral efficiency in mind, recognizing the 
scarcity of this national resource; and (4) fair long-term 
opportunities are provided for a range of qualified commercial 
operators to partner with public safety and those operators can 
use available capacity on the network wherever feasible.
    In conclusion, Congress and FCC must go beyond choosing 
between holding an auction of D Block licenses and reallocating 
the spectrum to public safety. U.S. Cellular is prepared to 
support either approach, provided the needed safeguards are 
adopted. Without those safeguards, we all risk missing the 
opportunity that is before us today. An incomplete solution 
could result in sporadic coverage that favors urban markets and 
leaves rural communities behind, needlessly inflates the cost 
of equipment for public safety users, permits the inefficient 
use of the spectrum, fails to spur competition, and adds to the 
burden on the taxpayer.
    The worst course of action, however, is continued inaction. 
While we have studied and debated the right course to take, we 
have left the D Block and most of the public safety block idle. 
This inaction has meant no interoperable public safety network, 
it has foreclosed spectrum from commercial uses, and is has 
deprived the Federal Treasury as well as public safety of 
revenues from this spectrum. Now is the time to advance the two 
complementary goals of meeting public safety needs and 
expanding competitive wireless broadband services for consumers 
by adopting a framework that encourages shared public-private 
networks and regional public-private partnerships.
    Thank you for the opportunity to provide this testimony and 
I look forward to your questions.
    [The prepared statement of Mr. Hanley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you, Mr. Hanley.
    We will go next to Mr. Imlay, who is the general counsel 
for the American Radio Relay League, known more informally as 
the Ham Radio Operators. So Mr. Imlay, we are glad to have you 
here. We look forward to your testimony, sir.

                    STATEMENT OF CHRIS IMLAY

    Mr. Imlay. Thank you very much, Chairman Walden and members 
of the committee. Is it a great honor and a privilege to appear 
before you today and to represent the interest of the 700,000 
amateur radio operators in the United States. We are not first 
responders, but we are proud to provide support communications, 
emergency restoration communications, and emergency temporary 
interoperability communications for first responders and for 
those involved in local and regional disaster relief. The ARRL 
has memoranda of understanding with FEMA, with the National 
Communication System, and the Department of Defense, with the 
American National Red Cross, the Salvation Army, and the 
National Weather Service, and we routinely are involved in that 
period of time during and immediately after the occurrence of a 
natural disaster in the United States when communications 
systems are disrupted, overloaded, or fail.
    We are very much supportive of both the creation of a 
nationwide interoperable broadband network for public safety. 
It has been proven to be an absolute necessity. And we are also 
supportive of the allocation of the D Block to public safety as 
well. In the immediate aftermath of a natural disaster, the 
ability of any network to provide interoperable communications 
is going to necessitate a certain amount of bandwidth. 
Bandwidth translates into the ability of public safety 
officials to communicate large volumes of traffic which are the 
inevitable need for immediate post-disaster communications.
    There is before the subcommittee now H.R. 607, which 
provides for both the creation of a nationwide broadband 
network and for the reallocation of the D Block to public 
safety. Those are admirable goals and the amateur radio 
community supports them. The problem, though, with H.R. 607 is 
that Section 207(d) of that bill provides uniquely for a 
commercial auction and reallocation of the 420 to 440 megahertz 
and 450 to 470 megahertz bands. They are referred to in the 
bill as ``paired bands,'' but they are really not. The concept 
apparently behind that Section 207(d) is that as a quid pro quo 
for the allocation of the D Block, these 2 segments of spectrum 
would be reallocated and auctioned as a means of paying for the 
creation of the broadband network using the D Block.
    The problem is that those frequency segments would displace 
a number of critical uses. In addition to the amateur service 
in the 420 to 440 megahertz band, the United States Government 
uses that band for military radars, including PAVE PAWS radars 
for early detection of offshore surface launch missiles. And 
they also use the band for airborne radars for drug 
interdiction purposes.
    In the 450 to 470 megahertz segment, there are many 
thousands of business and industrial radio uses which supports 
small business in the United States for dispatch 
communications. Broadcast radio stations use that segment for 
remote pickup units to provide breaking news to the American 
public. The band is used for security and alarm systems for the 
station monitoring security industry. And they are many other 
uses. These are not public safety allocations. And the 
displacement of all of these important uses in these two band 
segments is not necessary to the creation of an interoperable 
public safety network.
    We urge the deletion of Section 207(d) of H.R. 607 if the 
subcommittee decides to use this version of this legislation in 
any future markup.
    And we are grateful for the opportunity to bring these to 
your attention. Thank you.
    [The prepared statement of Mr. Imlay follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you, Mr. Imlay. We appreciate your 
testimony. It is part of why we are having these hearings, to 
find out who is using what spectrum and the various issues.
    Mr. Steinberg, I have been advised you should test your 
microphone to see if it works now.
    Mr. Steinberg. How is that?
    Mr. Walden. Keep talking.
    Mr. Steinberg. Keep talking? I will keep talking. Still 
talking.
    Mr. Walden. All right. All right. Mr. Hanley, will you just 
help us out here and move your mike down to Mr. Steinberg.
    Mr. Steinberg. Would you like me to just speak loudly?
    Mr. Walden. No, because----
    Mr. Hanley. Testing.
    Mr. Walden. There we go. Is yours working, Mr. Martinez?
    Mr. Martinez. No, it is not.
    Mr. Walden. Oh, OK. Don't pull too hard. You will have to 
get out a soldering iron. Mr. Steinberg, please.

                  STATEMENT OF PAUL STEINBERG

    Mr. Steinberg. Thank you, Chairman Walden, Ranking Member 
Eshoo, and other members of the Subcommittee for this 
opportunity to testify on the topic of Interoperable Public 
Safety Communications. My name is Paul Steinberg and I am the 
chief technology officer of Motorola Solutions, Incorporated. 
Prior to my current position, I worked at Motorola Networks, 
where I was their chief architect for cellular and broadband 
commercial infrastructure products serving customers such as 
Verizon.
    Motorola Solutions--formerly Motorola, Incorporated--has 
been committed to innovation in communications and electronics 
for more than 80 years. Motorola has served the public safety 
sector continuously over these 8 decades, and the company is 
very proud of its history in this regard. Motorola has remained 
committed to the marketplace and has listened closely to needs 
of public safety and providing public safety with reliable, 
state-of-the-art equipment and innovative solutions.
    There are three key points that I would like to emphasize 
from my written testimony. Point number one, based on a 
detailed analysis, public safety will need broadband capacity 
that will surpass what would be afforded by the 10 megahertz 
the Public Safety Spectrum Trust sector below. We recently 
confirmed this by working with public safety officials on 
network capacity analyses to understand how broadband networks 
can enhance emergency response and better protect the safety of 
all involved. During these scenarios, we found that a network 
infrastructure based solely on the existing 10 megahertz public 
safety allocation will struggle to provide the necessary 
capacity forthcoming. Adding the additional 10 megahertz D 
Block spectrum would effectively double the network capacity 
for public safety and improve incident response. It is 
important to remember that not only does the catastrophic event 
that benefits from this increased spectrum, day-to-day 
situations ranging from an overturned gasoline tanker on the 
expressway to storms and tornadoes, toxic situations in a 
residence can all benefit from the enhanced situational 
awareness, command and control, and that is enabled through 
this additional spectrum.
    Point number two, FCC Chairman Genachowski has stated as 
recently as last Thursday at the CIA conference that broadband 
spectrum needs are predicted to grow 35 times in the next few 
years. Consumer use and demand for broadband application is 
indeed exploding, as are public safety's broadband 
requirements.
    Point number three, there are additional costs that need to 
be factored into an auction scenario that we believe will 
quickly offset the proceeds of an auction. These costs are 
driven by two main items: the need for additional capacity that 
public safety will have to secure and pay for when carriers 
exhaust their 10 megahertz of capacity. A little-known fact is 
that today public safety spends about $2 billion handling for 
carrier services and an independent analyst projects that this 
will climb to over $5 billion handling in 5 years.
    The second incremental cost is the need to mitigate the 
interference between a commercially-operated D Block and the 
adjacent PS base. The equipment cost or capital expenditure to 
build out a 20 megahertz LTE network with the D Block allocated 
is basically the same as to build out 10 megahertz LTE network. 
However, the cost to build the network with 10 megahertz 
initially and to add additional spectrum later would be 
considerably more.
    We all share a common goal of equipping our first 
responders with the best and most innovative technology 
possible so that they can safely and effectively perform their 
mission. In order to achieve this, we at Motorola Solutions 
certainly support the commitment for nationwide 
interoperability, leverage of commercial standards such as 
through the LTE and private-public partnership. These need to 
be coupled with sound spectrum policy. We have a unique 
opportunity to carve out spectrum that provides the best 
current capabilities and economics for public safety while 
maximizing future options as the technology evolves.
    So in conclusion, Mr. Chairman, Ranking Member Eshoo, and 
other members of the subcommittee, Motorola Solutions welcomes 
the opportunity to compete in a standards-based environment to 
help public safety realize its vision to have a truly 
interoperable nationwide broadband network. We look forward to 
working with the subcommittee to further realize our shared 
vision of a competitive market providing innovative solutions 
for public safety communications. Thank you very much.
    [The prepared statement of Mr. Steinberg follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you, Mr. Steinberg. We appreciate your 
participation in the hearing. Dr. Martinez, we will go to you 
next, the chief technology officer with Harris RF 
Communications Division. We appreciate your being here as well, 
sir.

                  STATEMENT OF DENNIS MARTINEZ

    Mr. Martinez. Well, good morning, Mr. Chairman, Ranking 
Member, and members of the committee. First, let me thank you 
for inviting me to testify about key steps that must be 
achieved rapidly to develop and deploy a truly interoperable 
nationwide public safety broadband network.
    Let me begin by first introducing you to the Harris 
Corporation. Harris is an international communications and 
information technology company serving commercial and 
government markets worldwide. Headquartered in Melbourne, 
Florida, the company has approximately 16,000 employees, annual 
revenues of approximately $6 billion, and nearly 7,000 
engineers and scientists. Harris is a leading global supplier 
of secure radio communications products, services, and systems, 
embedded high-grade encryption software and products for the 
military, government, and public safety purposes. Harris is a 
pioneer in the development of internet protocol, or IP-based 
networks for private radio and broadband applications. We 
supply the industry with market-leading narrowband, broadband, 
and multiband networks, services, and devices.
    I serve as the CTO of Harris Corporation's RF 
Communications Division. I also chair the FCC's Emergency 
Response Interoperability Center, Public Safety Advisory 
Committee, Security and Authentication Work Group. I have spent 
most of my career bringing advanced technologies to public 
safety, national defense, and homeland security markets. In 
these roles, I have learned how leveraging commercial 
technology innovation can have a profound impact on our 
Nation's ability to procure and deploy state-of-the art 
products and services for these mission-critical markets. I 
have also seen that a robust supply chain fostered by 
appropriate business models and multi-source procurement 
practices must be implemented to ensure that all levels of 
government will procure these capabilities in a cost-effective 
manner.
    Today, Smartphones, supported by a vast ecosystem of 
application providers, have unleashed enormous capabilities of 
modern 3G and 4G wireless networks. These capabilities 
literally are revolutionizing the socioeconomic structure of 
the world. However, our Nation's first responders, charged with 
protecting lives and property, are not yet able to take full 
advantage of this capability. Public safety must be enabled to 
leverage broadband technology in ways that will leverage and 
significantly enhance their ability to perform their missions. 
It is time for our Nation to build this hardened nationwide 
interoperable broadband network in the 700 megahertz dedicated 
spectrum. We support the reallocation of D Block spectrum to 
public safety and we commend Congress' examination of this 
critical issue.
    Two key ingredients--policies that have opened the 700 
megahertz broadband spectrum to public safety and the 
availability of broadband technology--now enable construction 
of this nationwide network. It is now time to finalize two 
final elements: governance and procurement.
    The broadband network, properly constructed, will serve 
first responders and government agencies charged with the 
public safety mission, and this involves federal, state, local, 
and tribal organizations. Establishing a governance structure 
to ensure nationwide interoperability among these organizations 
is essential. While we must provide this interoperability 
capability, we must also ensure that we are addressing the 
interoperability requirements that are unique to each of those 
organizations.
    For example, the city of Los Angeles, by virtue of its 
size, population, and geographic location has needs that differ 
from a smaller inland location such as Bend, Oregon. A key goal 
in creating a relevant governance structure for all is to 
ensure that these stakeholders can participate in the 
establishment process and ongoing governance structure that is 
created.
    The activities of the FCC Commission in the past and 
ongoing rulemakings are to be applauded. They serve as a model 
for governance in matters outside of their jurisdictional 
authority. A governance entity must oversee all aspects of the 
network lifetime cycle, through design, implementation, 
operations, and maintenance. That entity must ensure 
implementation of a procurement model that ensures the 
achievement of nationwide interoperability.
    In this regard, we must now finalize a regulatory framework 
and determine what interoperability means as a threshold 
matter. Considerable time and effort has been spent defining 
interoperability from technical and operational perspectives. 
Here we want to discuss what interoperability means from the 
perspective of governance and procurement. Indeed, technical 
and operational considerations alone will not yield the desired 
outcome. I do repeat, indeed, technical and operational 
consideration alone will not yield the desired outcome.
    We can draw from many examples of success in the commercial 
world. As consumers and users in the commercial world, we 
understand what this means. It means we can procure these items 
in an open and competitive environment. Our expectations drive 
the need not just for interoperability, but beyond that, 
interchangeability. We choose the device that suits our needs, 
on the network that provides the service we require, in a 
highly competitive and innovative market. Market demands drive 
commercial service providers to deliver interoperability. In 
turn, commercial service providers drive interchangeability 
throughout their supply chain to ensure uninterrupted 
availability of competitive and innovative products. Their 
business success relies on having multiple sources within their 
supply chain. This is the model that should guide the 
governance structure and procurement process for this network. 
In this way, interoperability will become not just a mandate; 
it will become the outcome.
    Interoperability, therefore, is the ability to procure the 
devices--network building blocks--that are fully 
interchangeable. This definition will allow our first 
responders to purchase equipment in a highly competitive and 
innovative environment. They can purchase this equipment with 
confidence that it will plug-and-play. Creating this market 
dynamic will require funding mechanisms that drive this model.
    And finally, let me close by saying that it is essentially 
that we ensure economic viability of the public safety 
broadband network. The need for federal funds to launch the 
initiative is well understood. Also understood are the 
challenges in this difficult financial time. Here, we want to 
discuss how these challenges can be alleviated.
    First is the benefit of leveraging a vast commercial 
ecosystem. Second is to realize the savings that will come 
about through a competitive business practice, a competitive 
procurement practice. And third is that we will move to a 
converged network with converged devices and that convergence 
process itself will save enormous cost in the future.
    In conclusion, the public safety broadband network will 
bring unprecedented capabilities to our Nation's first 
responders and agencies that support the public safety mission. 
Built on a competitive market and the latest broadband 
standards, supported by this ecosystem, this network will 
enable interoperability to become a reality.
    Once again, Mr. Chairman, I want to applaud the committee's 
leadership on this issue, and I appreciate the opportunity to 
testify today. I look forward to further working with you in 
the future to make this a reality.
    [The prepared statement of Mr. Martinez follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you, Dr. Martinez. We appreciate your 
testimony and comments. We are going to go now to Mr. Johnson, 
Jeffrey Johnson, Chief Executive, Western Fire Chiefs 
Association on behalf of the Public Safety Alliance, Bend, 
Oregon Fire League. So we are delighted to have you here.

                STATEMENT OF JEFFREY D. JOHNSON

    Mr. Johnson. Thank you, sir. Good morning, Chairman Walden, 
Ranking Member Eshoo, and members of the subcommittee. I am 
Jeff Johnson, immediate past president of the International 
Association of Fire Chiefs and the chief executive of the 
Western Fire Chiefs Association. And today I testify on behalf 
of the Public Safety Alliance, which represents nine 
associations representing all the leadership in the public 
safety community.
    In the past 50 years, America's domestic defenders have 
been allocated thin slices of spectrum in each new band as it 
became available. That is why today we have more than 55,000 
public safety agencies each operating its own mission critical 
radio system over six or more different radio bands. Connecting 
disparate frequency slices among and between agencies and 
jurisdictions to achieve interoperability requires the 
purchase, programming, and deployment of electronic patching 
equipment operating under a governing protocol. This makes our 
goal of interoperability limited, difficult, and expensive.
    Mr. Walden. Mr. Johnson. Let me stop you for a second. Can 
you try your mike? Apparently, we are having--got it. All 
right. Mr. Johnson, if you would like to resume your testimony. 
I apologize for the interruption.
    Mr. Johnson. Thank you, sir. Following numerous major 
events and other significant disasters which demonstrate 
communications failures, we know that a new model is necessary. 
Required is a national architecture for public safety wireless 
communications.
    To create and construct a nationwide public safety wireless 
broadband network, three key ingredients are requisite: the D 
Block spectrum, number one; number two, federal funding; and 
number three, a governance structure which makes it all 
operate.
    To achieve connectivity coast-to-coast and border-to-
border, the 10 megahertz block of D Block spectrum, currently 
slated for auction by the FCC, must be added to the 10 
megahertz of spectrum licensed to Public Safety to build out a 
network with sufficient capacity. Local control of the network 
by public safety agencies is critical. Utilizing a single 
technology with adequate spectrum will ensure nationwide 
interoperability and allow us to effectively manage day-to-day 
operations, as well as major events.
    Public safety expects to enter into a public-private 
partnership with states, counties, local governmental agencies, 
federal partners, utilities, and other agencies such as water 
and highways who respond to emergency incidents routinely. But 
public safety must have control over the operation of the 
network in real time to give public safety assurance that they 
will have full preemptive priority over its spectrum on a when-
needed basis. The network must be ``mission critical'' from the 
outset. In the beginning, this system will handle only data and 
video. At some future time--years away--we believe there will 
be a migration to mission critical voice over this broadband 
network. This migration will happen only when technology is 
developed and tested and public safety has confidence in it and 
it is affordable.
    Funding is important for the build-out of the public safety 
broadband network. The Public Safety Alliance supports the 
auction of spectrum by the FCC--from incentive auctions, 
auctions of the unsold portion of the Advanced Wireless 
Spectrum, or auctions of designated federal spectrum--with the 
proceeds priority-marked for funding the construction, 
operation, and maintenance of a nationwide public safety 
network.
    A governance structure must be created to manage and 
operate this new nationwide public safety broadband network. 
Key among the seven Public Safety Alliance guiding principles 
listed in my written testimony are, number one, that Public 
Safety First Responder delegates constitute a majority of the 
governing body; and second, the Public Safety 10 megahertz and 
the D Block megahertz would be combined under a single license 
issued to the governing body.
    Public safety is supported in its quest for the D Block by 
the ``Big 7'', the seven national associations which represent 
state and local governments. We also are supported by the two 
top U.S. telecommunications carriers, as well as primary 
manufacturers of telecommunications equipment.
    The 9/11 Commission recommended in its report that an 
interoperable communications system be established for public 
safety. At a Senate hearing on March 30, former commission 
chairman Governor Thomas Kean said, ``We support the immediate 
allocation of the D-block spectrum to public safety. We must 
not approach these urgent matters at a leisurely pace. We don't 
know when the next attack or disaster will strike. Further 
delay is intolerable. We urge the Congress to act.''
    Mr. Chairman, I thank you and this subcommittee for today's 
hearing on this vital issue for public safety. I am looking 
forward to answering any questions you may have. Thank you.
    [The prepared statement of Mr. Johnson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you, Mr. Johnson. We appreciate your 
testimony as well. Now, we will go for our final witness, Mr. 
Joe Hanna, President of Directions. Mr. Hanna, welcome, and 
hopefully your microphone works.

                  STATEMENT OF JOSEPH L. HANNA

    Mr. Hanna. Let us hope so.
    Chairman Walden and Ranking Member Eshoo, members of the 
committee, my name is Joe Hanna and I currently serve as the 
president of Directions, which is a public-safety-focused 
wireless telecommunications consulting practice. Prior to 
starting this practice, I retired from public safety 
communications and the public policy arena after 30 years of 
service. The comments I have prepared for today's hearing are 
solely my views and should not be construed as representing any 
client or past affiliation.
    I operate from the assumption that everyone in this room 
agrees that our first responders should have the tools they 
need to serve the public, including access to state-of-the-art 
communications systems. Some of us, however, fail to agree on 
the fact that there are two distinct and viable paths that can 
provide public safety with the wireless broadband services that 
they need and deserve.
    Congress has provided public safety with 24 megahertz of 
spectrum in the 700 meg band. If prudently utilized, this 
allocation can provide public safety with the capacity they 
need for day-to-day needs. Using that capacity in conjunction 
with commercial spectrum in the 700 megahertz band, as proposed 
in the FCC's National Broadband Plan, will give public safety 
the bandwidth necessary for situations in which the public 
safety allocation may become overloaded. The difference between 
those pressing the reallocation to the D Block to public safety 
and that of the paradigm envisioned in the National Broadband 
Plan is that the LTE platform now standardized as the 
interoperable vehicle for a public safety network provides an 
automatic, seamless, priority-accessible mechanism that can be 
triggered in the event of an overload of the baseline public 
safety network.
    Equally as important, partnering with commercial entities, 
a cornerstone to the National Broadband Plan, will allow first 
responders to take advantage of both reductions in the cost of 
building the core network while taking advantage of the 
benefits of commercial networks and the economies of scale for 
user devices needed by the first responders.
    I wholeheartedly agree with my public safety counterparts 
that the core of this proposed public safety broadband network 
should be centered around a dedicated public-safety-grade 
broadband network. And this network should recognize no 
distinction between urban, suburban, and rural boundaries. My 
fellow panelists and I also seem to agree that the widespread 
financial crisis facing cities, counties, and States throughout 
the Nation will now allow America to realize the nationwide 
implementation of a dedicated public safety network without an 
infusion of federal funds.
    I would also like to note that several legislative 
proposals that have emerged around this debate the past year 
will help public safety use the spectrum that they have been 
allocated more effectively by providing for the flexible use of 
700 megahertz public safety spectrum currently allocated for 
narrowband communications. Failure to provide this flexibility 
will result in critically needed spectrum lying fallow in many 
parts of the Nation.
    The greatest flaw that I see in reallocation of the D Block 
to public safety in lieu of the current law and the proposals 
of a National Broadband Plan, however, will be the unintended 
consequences of creating an island ecosystem. With no 
commercial economies of scale, public safety will again find 
itself held hostage by a limited number of providers resulting 
in the same low-volume, high-cost marketplace faced every day 
in the public safety land mobile environment.
    Additionally, budget estimates for a public safety network 
is calculated for the National Broadband Plan were based on a 
model in which the dedicated public safety network would be 
built in conjunction with commercial rollouts of LTE networks. 
The broadband cost estimates for a standalone public network 
more than triples the cost of a shared deployment. With a 
shortfall in federal funds, public safety will be faced with a 
difficult choice of determining either how to ask Congress for 
billions of additional dollars of funding or to choose where 
the network will be built and where it will not be built.
    Instead of building a bridge to nowhere, we are now faced 
with building half a bridge, then forcing you to the 
unnecessary expenditure of additional billions of dollars to 
complete the bridge or leaving a substantial portion of 
America's first responders without the broadband service they 
deserve.
    One of the most significant issues that must be addressed 
by any legislation considered by this Congress is the provision 
for a well-defined governance and administrative structure that 
will be required for the deployment of this initiative. Let 
there be no doubt; this proposed multibillion-dollar venture is 
massively complex. If we fail to adequately address the issue 
of governance and administration of this effort at the outset, 
we guarantee extended delays in implementation, massive 
needless cost, and failure to have services implemented 
nationwide in an acceptable time frame.
    Last, we must be cognizant of the fact that we have other 
equally-pressing public safety communication demands that must 
not be overlooked as precious and limited federal resources are 
budgeted.
    Subcommittee Member Shimkus and Eshoo, who were both 
cofounders of the Next Generation 9-1-1 caucus, they are well 
versed in the needs of the Nation's public safety answering 
points to upgrade their 9-1-1 capabilities to bridge this 
critical length in the public safety continuum. At the end of 
the day, we must all recognize the fact that there is a finite 
pool of funds, and we must ensure that we responsibly address 
the myriad telecommunications requirements needed to serve both 
the public and our first responders.
    Again, I would like to thank you for the invitation to 
speak before this committee, and I would be glad to answer any 
questions you have.
    [The prepared statement of Mr. Hanna follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Walden. Thank you very much, Mr. Hanna. I appreciate 
your comments, your testimony. I really think we have got a 
terrific panel of witnesses that really span the spectrum of 
the topic we are discussing today, from the technical level to 
the user level. And so we appreciate all your testimony.
    I would ask unanimous consent--we have two letters from the 
FCC Chairman Genachowski in response to congressional inquiries 
on public safety equipment. We have Motorola's response to the 
same letter to the FCC in a report from Congressional Research 
Service on federal funds spent on public safety radios. I ask 
unanimous consent that they be made part of the record. And I 
would recommend to my colleagues on the committee on both sides 
to take advantage of actually reading these documents. A lot of 
work has gone into the answers, which I think will play into 
whatever we do legislatively.
    I will start off with questions.
    Mr. Hanley, first of all, I want to confirm a statement 
that you made that a standalone public safety network would 
cost in the order of $20 billion. Is that what you testified 
to?
    Mr. Hanley. Thank you for the question.
    Mr. Walden. Please turn on your----
    Mr. Hanley. OK.
    Mr. Walden. There you go. Just get real close to it.
    Mr. Hanley. Better? OK.
    I think I was referencing the FCC's analysis of that 
question. You know, clearly, a network that leverages existing 
cell towers, existing radio equipment is going to be much more 
cost-effective than one that starts from scratch.
    Mr. Walden. All right. I want to ask you and Mr. Hanna. 
Part of what we are looking here at is the 24 megahertz that 
public safety was given as part of DTV. Ten of it is currently, 
as I understand it, being used for broadband. There is a 2 
megahertz sort of barrier wall between that and push-to-talk 
technology. As we look at that, it looks to me like at some 
point in time, there is another at least 12 megahertz that 
could be dedicated to broadband and perhaps LTE, whatever, 
which is more than what we are talking about in D Block. So I 
guess the question I am trying to resolve is what can be done 
today with 10 megahertz of broadband spectrum? And might that 
be enough to close this gap in terms of technology and migrate 
everybody into an interoperable broadband network that uses 
that 10 megahertz that is now, frankly, not being very 
efficiently used, although push-to-talk is a communication. I 
mean, I got all that with the new technology. So, you know, we 
are talking 2 to 3 billion users, not 100 million users like 
some of the commercial providers have on 10 megs. So could that 
10 or 12 megs be used for broadband and satisfy this 
interoperable need? Mr. Hanna, do you want to start? And then 
Mr. Hanley.
    Mr. Hanna. Well, I think the question is well asked. There 
is, unfortunately, a conflict with part of the spectrum at 700 
meg public safety allocation, and that is that there are--
although not widely deployed--there are a number of large 700 
meg narrowband systems already deployed or in the process of 
being deployed. So that spectrum is being built out already.
    Mr. Walden. Is that an efficient use of that spectrum when 
we look at LTE and all in the future? I mean, aren't we 
creating new islands?
    Mr. Hanna. I think in the long term--and Chief Johnson 
mentioned this as well--in the long term, I think we could 
certainly make better use of it if that were ultimately moved 
into the broadband allocation. Unfortunately, right now, there 
simply is not a technology in play that would allow broadband 
mission-critical voice communications there.
    Mr. Walden. Would that apply also, then, to the other 10 in 
the D Block?
    Mr. Hanna. Absolutely. At this stage, there is nothing on 
the table for mission-critical voice in the broadband 
allocation.
    Mr. Walden. And so what would the time horizon be for 
mission-critical voice in that allocation?
    Mr. Hanna. As Chief Johnson mentioned, and I would echo, it 
is down the road a ways because at this stage----
    Mr. Walden. What does that mean, 3 to 5 years?
    Mr. Hanna. I mean, I would say five to ten at least.
    Mr. Walden. All right. I didn't mean to cut you off here, 
but we have limited time here. Mr. Hanley?
    Mr. Hanley. Yes, I would concur with what Mr. Hanna said. I 
think that we should envision the narrowband spectrum being 
used down the road to augment the broadband spectrum, and we 
should have a definitive plan for addressing that migration as 
soon as it is practical to do so. I think in the short run, 
whether the 10 megahertz is sufficient depends on the model 
that is built around it. If we have roaming capabilities with 
other spectrum, that may be a way of augmenting the 10 
megahertz. The way the network is designed and architected 
could make more efficient use of 10 megahertz allocation.
    Mr. Walden. You know, part of our discussion, too, is about 
the equipment. And from my days either as an amateur radio 
operator--as a broadcaster who sent both your companies money 
over time, good equipment, the rock solid Motorola in the trunk 
of the mobile unit we had at a base station--but I also know 
that the commercial side spends that equipment a lot cheaper 
for mass use.
    We have got a letter--and maybe my colleagues can address 
that as my time is running out--from the FCC that did that 
evaluation where some of the hardened equipment for public 
safety comes in at $5,000, and the same sort of communication 
device in the private, commercial side may be a couple hundred 
bucks. So I won't ask it because my time has expired, but I 
think it is an issue I think we have to dig into. Say can you 
get capability with greater innovation more often at 1/10 of 
the cost of what we are all paying as taxpayers today?
    My time has expired. I will recognize the gentlelady from 
California for her questions.
    Ms. Eshoo. Thank you, Mr. Chairman, and thank you to each 
one of you for your excellent testimony today. I think it has 
been highly instructive for the members of the subcommittee.
    Let me just pick up where the chairman left off. This is a 
report from the Federal Communications Commission. This is on 
the cost of public safety communications. It says that ``This 
is at least partly because public safety''--going back to the 
cost--``is unable to capture the benefits of competition and 
economies of scale associated with equipment and devices that 
are manufactured for the commercial consumer marketplace. 
Commission staff expect that leveraging the commercial mass 
market could reduce cost for public safety devices 
substantially.'' These are substantial cost differentials here.
    So who would like to comment on this? Maybe we should go to 
Motorola first, since there are some questions surrounding how 
competitive, you know, this whole area is. You mentioned in 
your testimony that you looked forward to a competitive market. 
I don't know how you define that, but do you want to speak to 
the costs on this just very briefly? And anyone else want to 
lean in on it?
    Mr. Steinberg. Sure.
    Ms. Eshoo. It looks like we are going to be picking up the 
tab on this, so we have to pay attention to the cost.
    Mr. Steinberg. Is this working at all?
    Ms. Eshoo. Yes, speak louder.
    Mr. Steinberg. OK, thank you.
    Ms. Eshoo. We are dying for your answer.
    Mr. Steinberg. Thank you for the question. It is----
    Ms. Eshoo. Sure. No, go ahead.
    Mr. Steinberg. I think it is going around a lot and I 
appreciate the opportunity to clarify.
    The ASPs are thousands of dollars less on average than what 
are typically quoted. And we do compete competitively for all 
products, for example, with----
    Ms. Eshoo. Well, where does this figure come from then? I 
mean do you disagree with this with the FCC's estimates that a 
state-of-the-art consumer cellular device typically costs a few 
hundred dollars? A typical land-mobile radio for public safety 
communications may cost as much as 5,000? Is that false?
    Mr. Steinberg. So I disagree with the $5,000 number.
    Ms. Eshoo. So how much is it?
    Mr. Steinberg. It is considerably less than that.
    Ms. Eshoo. What is considerably less?
    Mr. Steinberg. If I could please----
    Ms. Eshoo. No, I don't have a lot of time, so if you want 
to answer it, fine. If not, I am going to go to someone else.
    Mr. Steinberg. So we will be happy to get back to you with 
the specific data.
    Ms. Eshoo. Great. OK.
    Mr. Steinberg. That is not my area of expertise.
    Ms. Eshoo. Thank you. To Dr. Martinez, thank you for your 
testimony. And I think that you centered in on the two areas 
that are so critical, and that is governance and procurement. I 
think you really were helpful to us in how you built your 
testimony.
    Obviously, interoperability is vital to a seamless 
communications system, and the FCC has recently mandated that 
all public safety broadband networks adopt the LTE as a common 
technology platform. What, in your view, are additional 
safeguards that are needed to promote competition in the public 
safety equipment market?
    Mr. Martinez. Yes, Congresswoman, thank you. You know, we 
need to learn from the success of the commercial telecom 
industry. That industry has succeeded in innovating rapidly, 
bringing capability to market quickly, providing a cost-
effective solution. And how have they done that? Well, they do 
that through a very competitive process.
    Ms. Eshoo. Um-hum.
    Mr. Martinez. And we call that process multi-sourcing, 
which means that they look at every major component, subsystem 
of their networks, and they ensure that they have multiple 
sources of supply. They do not engage in sole-source practices.
    Ms. Eshoo. Um-hum.
    Mr. Martinez. They frequently do not single-source. Multi-
sourcing is the answer because it provides for a competitive 
environment----
    Ms. Eshoo. If I might, how do we ensure that the equipment 
market keeps pace with the innovation taking place in the 
commercial sector?
    Mr. Martinez. The first step, of course, was to adopt the 
common platform, LTE. That was the first step. Pretty much 
unanimous support----
    Ms. Eshoo. Right.
    Mr. Martinez. --in the record for that decision on the 
Commission's part. Now, having done that, we can't do it 
halfway.
    Ms. Eshoo. Um-hum.
    Mr. Martinez. And we discussed this just yesterday. And I 
believe that was a comment from Mr. Steinberg. We must do it 
all the way. We must continue to follow the standard as it 
evolves. We must leverage the ecosystem as it continues to 
develop. We must ensure that the same competitive practices 
that have made the carriers so successful are applied as we 
implement a governance organization or a structure for the 
public safety network.
    Ms. Eshoo. Great. I just want to get one more question in. 
Thank you very much.
    To Chief Johnson, thank you for your testimony. At the same 
time that you advocate for local control of the network, which 
is obviously very important, and you mentioned that in your 
testimony, would there be tension between a national governance 
structure and the local control that you testified?
    Mr. Johnson. Thank you, Congresswoman. I think this is how 
we see it operating. The national governance body would set 
technology standards so that we have one technological approach 
to make sure that things work as they should. They would set 
standards and regulations for the network, but you are going to 
need--in some cases it may be a large city; in other places it 
may be statewide or may be regional. The end point is we need 
local and regional presence for operating the dial as it were. 
Public safety views these events and says we have to control 
the dial. When we need the network, we have to reach up, 
figuratively, and turn it over so public safety has access. And 
I think I don't expect there will be tension between the two. I 
think, in fact, the local presence will make the national 
governance model stronger.
    Ms. Eshoo. Thank you. Thank you, Mr. Chairman.
    Mr. Walden. Thank you for your questions. We will turn now 
to the vice chair of the subcommittee, Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman. And if I can start off 
with thanking everybody. I agree with Mr. Walden that this is a 
pretty impressive panel and appreciate your expertise in 
sharing it with us.
    My question, it is really three parts to the same question 
of the shared system. And it may be too long with these three 
to actually get real answers from you, so if you guys would 
like to submit longer answers. But specifically to Mr. Hanna 
and Mr. Hanley, and I will ask Mr. Hanley if there is enough 
time. Mr. Hanna, I will let you otherwise, you and others could 
submit it. But can you comment on the specifics as to why a 
shared system built out of a network is less expensive than the 
one in which standalone public safety one would be? And would 
this shared system also--we talked about the 12 for narrowband, 
2 for guarding, and 10 for broadband of the current 24 that has 
been set aside through the digital transition. Are you talking 
about those 24 plus the 10 to set up a shared system? And then 
last, I think one of the ultimate questions is taking all 
levels of an emergency from your basic wreck on the interstate 
to a 9/11 or Birmingham or Joplin where systems are wiped out 
of a complete city, is there a risk in a shared system that at 
a time of an emergency that public safety wouldn't have enough 
of the spectrum to operate in both narrow and broadband areas? 
So Mr. Hanley, three questions.
    Mr. Hanley. OK. So first of all, I think the shared network 
can be lower cost because it is going to leverage existing 
assets of the network operators already have in place. It is 
going to leverage the capabilities that those operators have to 
efficiently operate networks and their knowhow in those areas. 
I think those are the quick answers to that question. We can 
provide more detail in writing.
    To your second question, our vision of a shared network 
involves the 20 megahertz of the D Block in the adjacent public 
safety broadband license spectrum. So that is what we are 
talking about when we envision the 20 megahertz shared network. 
But other constructs certainly could be part of that as well.
    And then I think to your last question about the different 
types of emergencies, I think that you can envision a number of 
operation constructs to be either developed in rules or 
negotiated between operators and public safety agencies to go 
as far as 100 percent utilization of the capacity in an 
emergency situation. I think that that depends on the way the 
model is set up and what other resources the other network 
operator has to serve its base of commercial customers.
    Mr. Hanna. Well, I think the first question certainly is 
that, the cost-savings from co-location at the outset. I mean 
if you are putting in two systems at the same time, same 
location, obviously there are some savings there.
    To the third question, I think there is a spin I haven't 
heard yet. If you are co-located or have a commercial partner, 
if you have a major disaster--so, for example, what we 
witnessed the last few weeks with the tornadoes--in a public 
safety environment, at least in the initial deployments that I 
am looking at, in one major jurisdiction, public safety was 
looking at building out 350 sites, which sounds like a lot. In 
that same jurisdiction, that same coverage area, one commercial 
carrier has 5,500 sites. So just by sheer numbers, if you have 
something like a tornado or an earthquake or whatever, the 
probability of having sites in play, as well as effective use 
of spectrum in more sites I think certainly gives you an 
advantage that you don't have in that standalone, you know, 
purely hardened public safety network. There has to be that 
core public safety piece. Don't get me wrong there. I support 
that. But if you are co-locating and co-serving with a 
commercial partner, you gain the access to, in this case, 
thousands of additional sites that somebody else has already 
paid for.
    Mr. Terry. Thirty seconds, Mr. Johnson?
    Mr. Johnson. Thank you. I think the general discussion in 
the public safety community is if we are allocated the 20 
megahertz of spectrum, we fully intend to have a commercial 
partner for all the reasons my colleagues here have 
articulated. It would not be cost-efficacious to go out and to 
replicate the kind of systems that exist out there. Some 
jurisdictions may want to but we actually see, as part of the D 
Block approach, having a commercial partner. The last thing I 
think we want is to shut down and overwhelm a commercial system 
because we are the output of the emergency response system and 
the call from someone trapped in their collapsed house is the 
input. And to shut down either of those at the expense of 
either is not helpful to the system.
    Mr. Walden. I believe next is Ms. Matsui from the list I 
have. Go ahead for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman. As I mentioned in my 
opening statement, one of the important issues that I believe 
has not been fully addressed but is central to ensuring an 
efficient and effective public safety network is who will 
govern and oversee this vast network that possess significant 
responsibilities.
    This question is to Chief Johnson and Mr. Hanley. In your 
opinion, who should oversee and possess ultimate responsibility 
and accountability for ensuring the development and deployment 
of a broadband public safety network, an achievement of 
nationwide interoperability? Chief Johnson?
    Mr. Johnson. Thank you, Congresswoman. We think that the 
provisions in S28, the Rockefeller bill, come very close to 
what we envision, which is we wouldn't expect the Federal 
Government to fund a network and then not have some presence in 
terms of the governance model. So in that particular model 
there are four cabinet-level positions in it.
    Second, public safety needs to have a prominent position in 
terms of the governance and so do local governments for all the 
reasons I have articulated already.
    But lastly, we believe strongly that our private-sector 
commercial partners and the people that are manufacturing the 
devices and can see over the horizon better than someone like 
myself, they need to be present and active as part of the 
governance model. So I think those are the three pieces.
    Ms. Matsui. So is this like a public-private kind of a 
nonprofit sort of partnership here you are talking about?
    Mr. Johnson. Yes, I think, Congresswoman, I don't know if I 
could articulate what is the best legal construct for the 
governance model, but I do think those three pieces have to be 
present in terms of who sets policy on the network.
    Ms. Matsui. Mr. Hanley?
    Mr. Hanley. I would agree that there needs to be some level 
of national governance and the constitution that Chief Johnson 
mentioned is probably an appropriate representation. A lot of 
the standards work needs to be overseen at that level. There 
may be applications that should be hosted on a nationwide 
basis. So I think it is a federal system in the end with 
governance from some type of national entity as well as a lot 
of local flavor.
    Ms. Matsui. OK. It seems like it is sort of floating at 
this time. And we don't want it to keep floating like this. 
Now, as we know, the current licensee of the existing 10 
megahertz of the public safety broadband spectrum is the Public 
Safety Spectrum Trust. Chief Johnson and Mr. Hanna, if a new 
entity was to hold the license and/or be responsible for 
governance and oversight of the network, would you support 
transferring the Public Safety Spectrum Trust License to this 
new entity?
    Mr. Johnson. Yes, Congresswoman, we would.
    Ms. Matsui. OK. And Mr. Hanna?
    Mr. Hanna. Absolutely.
    Ms. Matsui. OK. And what would need to happen to ensure a 
smooth transition? Either of you want to comment on that?
    Mr. Johnson. Congresswoman, I think we would have to lay 
out a pretty rational and detailed plan about how you transfer 
the license. There is all sorts of detail that have to be 
vetted at your level, frankly, and at the administrative level 
to make sure that we are legally going about it properly. And 
then that governance body is going to have to go to work about 
setting the standards and making sure that this thing deploys 
effectively.
    Ms. Matsui. OK. Now, if we create a new entity to manage 
this public safety network, they will have awesome 
responsibilities and have responsibility over highly valuable 
spectrum and significant public funding, not to mention needing 
to ensure the success of this vitally important network for 
first responders. Mr. Hanley, Dr. Martinez, and Chief Johnson, 
that said, how would we ensure accountability and success of 
any new entity to manage the public safety network? And Dr. 
Martinez first, if you would comment.
    Mr. Martinez. If you create an independent entity, then 
obviously, as you have stated in your question, then there is 
therefore a need to have a responsibility and accountability. 
That is certainly the challenge with an independent 
organization, a nonprofit organization is how do you hold it 
accountable for spending taxpayers' precious funds? I would 
suggest to you it will require extensive oversight certainly 
from bodies such as this one. It will require oversight and 
participation from the states and local entities to ensure 
that, first of all, their needs are being met in a responsible 
way, funds are being responsibly spent. As I have advocated 
earlier in my testimony, that their procuring equipment in a 
competitive and open market. And therefore it is going to 
require continued oversight from organizations such as this 
committee.
    Ms. Matsui. Right. OK. Mr. Hanley?
    Mr. Hanley. First of all, clear objectives that are agreed 
to by policymakers so that there is a clear benchmark against 
which the organization can be measured. I think the examples 
that Dr. Martinez cited are appropriate as well in terms of 
oversight. I think some type of an audit process would also be 
important to make that work.
    Ms. Matsui. OK. Chief Johnson, just a quick comment because 
I am running out of time.
    Mr. Johnson. I concur. I just think that we are going to 
have to lay this out very clearly when we charter the 
governance body with what our expectations and timelines are, 
and it has to have the mix we discussed and we have to hold 
people accountable.
    Ms. Matsui. Well, thank you very much. And I think we are 
talking about something that is sort of theoretical now at this 
point that we are going to have to figure out how we deal with 
this. So I will continue to ask questions. So thank you very 
much.
    Mr. Walden. Thank you for your questions and for the 
answers.
    I believe Mr. Bass, actually, was here when the gavel fell 
and so you would be up next, Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman. And it is an interesting 
hearing and I appreciate the fact that the subcommittee is 
addressing this complex issue in an orderly and pragmatic 
manner. And I think these hearings are helpful to us 
understanding, you know, what our side of the capital will do 
with this issue.
    Mr. Hanna and Chief Johnson and Dr. Martinez, can you 
explain to us or give us your perspective on why we will don't 
even have voice interoperability yet for public safety, let 
alone any broadband network? Chief Johnson?
    Mr. Johnson. Thank you, Congressman. I think it has its 
roots in the thin slices of spectrum that have been given to 
public safety over the years. And there were reasons that that 
happened, but those reasons don't apply in this market today. 
Technology has surpassed the reason for doing that originally. 
So what happens is in the street equivalent, it is like 
everybody is operating on their own road.
    Mr. Bass. Yes.
    Mr. Johnson. And then the public expects us to cooperate 
and be co-productive at the local level when we respond. Now we 
need to talk. So what we have had to do is we have had to build 
lanes between our own roads. And it is such a broken model. I 
think the public safety community's perspective on this is we 
would love to stop spending money on interoperability, have a 
vision for national architecture which we are articulating, and 
spend our money there rather than connecting these thin slices. 
And that makes so much sense on a lot of fronts. And most of 
all of those is this D Block spectrum paired with the 10 
megahertz we have eventually will be capable of radio-over-IP 
communications, but it is capable of data. And it is contiguous 
to the 700 narrowband channels which we have. And what that 
allows us to do is it allows a single technological approach. 
And I think that is why we are focusing on moving away from the 
thin slices and spending money on interoperability and move to 
one swath that will help us get all of it done.
    And Mr. Chairman, if I might, with your pleasure, sir, we 
would like to introduce one additional piece of communication 
from the Public Safety Alliance into the record, sir.
    Mr. Walden. Without objection.
    Mr. Johnson. Thank you.
    Mr. Bass. Mr. Hanley? I mean Dr.--well, either one of you 
two guys.
    Mr. Martinez. You know, if we look at how 13 billion plus, 
that was at the federal level plus what was spent at the state 
and local level, it is a large sum of money. The predominant 
practice has been really one of looking backwards. And by that 
we mean the predominant practice has been about focusing on 
operability, not interoperability. Significant amount of energy 
and emphasis spent on backwards compatibility as opposed to 
future interoperability. The procurement process has gone 
astray. It didn't focus on the core fundamental issue. We have 
to procure systems that are interoperable. You have to drive 
this car looking through the windshield, not through the 
rearview mirror. And so sad to say that most of that money was 
spent in a manner that did not move the ball as far forward as 
it could have and should have. We have learned that. We must 
not repeat that mistake.
    Mr. Hanley. I think it is a question of priorities and 
local resources. For the commercial sector interoperability was 
essential from the beginning. Folks had to be able to roam and 
have a seamless experience wherever they went. It was 
imperative that we have interoperability. The focus has been on 
operability in the local incident environments in public 
safety, so I think that is the reason.
    Mr. Bass. Mr. Steinberg, just a quick comment because I 
have other questions. Do you have any comments on this?
    Mr. Steinberg. I mostly would agree with Chief Johnson. It 
is the fragmented spectrum that has been the root of the 
problems that we have had from the beginning. The only thing I 
would also offer is that we have made substantial progress, 
maybe albeit not as rapidly as we would have liked on creating 
interoperable networks with the deployment of the APCO-25 
standard across 27 States. We cited several instances of good 
practices where we are achieving many, many agencies of 
interoperability within a State such as Michigan, Colorado, 
Ohio, Minnesota, San Diego to name a few. So there has been 
some progress made but more needs to be accomplished.
    Mr. Bass. On the cost side, is there an appropriate 
division in responsibility between the Federal Government and 
state and local law enforcement or first responders? How much 
should the States and localities be responsible for? And I have 
14 seconds left so somebody answer it quickly.
    Mr. Johnson. Any time you deploy a large system, this issue 
comes up and the best way to answer it is I think all of us 
will end up contributing to it. The formula, I don't have a 
great recommendation for you on except that state and local 
governments have infrastructure that will drastically lower the 
cost of deploying if they share. And it is sharing backhaul, it 
is sharing towers and infrastructure, it is sharing building. 
All of those things will contribute to lowering the cost of the 
system, and that may be the way they share. Or they may share 
real dollars.
    Mr. Bass. Thank you, Mr. Chairman.
    Mr. Walden. Thank you for your questions. We go now to the 
gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman, for this hearing and 
thanks to all the panelists for your testimony. It has been 
very instructive.
    Chief Johnson, there has been a lot of discussion in recent 
years about the optimal nature of the spectrum at 700 megahertz 
band for broadband. The propagation characteristics of these 
frequencies allow wireless signals to penetrate buildings and 
other topographic obstacles while transmitting high-capacity 
data signals. If public safety owns the D Block on the 700 
megahertz band through a reallocation solution, how are you 
going to make sure that this spectrum will be used in the most 
efficient manner at all times?
    Mr. Johnson. Thank you, Congressman, for the question. The 
spectrum that public safety has, we often hear about the 100 
megahertz we have. About 50 megahertz of that is in 4.9, and 
4.9 is really good short distance to backhaul data but is not 
good for penetrating buildings. It is not good for going 
through windows. And when the public safety community talks 
about how we feel about the 4.9, we are often saying that is 
one we are least likely to use because its short distance would 
be cost prohibitive to build a tower network around it. So when 
we start talking about that would be the one we would be 
capable of relinquishing in terms of likelihood, the response 
we usually receive is well, yes, you want to give us back the 
one that isn't very useful on the street.
     And that is kind of our point is it is not very useful. It 
is allocated to us but it is not as useful as the 700 
megahertz. So the 700 megahertz, the big advantage with that is 
the data is likely to perform the same as the voice does, and 
when the voice and the data perform the same at street level I 
am talking, then the police officer or fire fighter are able to 
count on having voice access and data access. The minute they 
become dissimilar, then you quit relying on them. Say, voice 
works and data doesn't. And that is a critical factor in terms 
of people actually using it at the street level. The 700 
spectrum is optimal. It is optimal because of how the wave 
performs and it is also optimal because it is beside our voice 
channels.
    Mr. Doyle. So how do we make sure, though, when you are not 
using it that we are getting the most efficient use of that 
whole spectrum, though?
    Mr. Johnson. Thank you, Congressman. I think the model we 
envision with a commercial partner would allow roaming onto 
that network while that spectrum is not being used. And what 
that would do is that would generate some enterprise money, 
which would help offset the cost of operating the system and 
building the system and dealing with some of the technological 
flip-overs that will naturally occur.
    Mr. Doyle. Thank you. Mr. Steinberg and maybe Dr. Martinez 
and Chief Johnson also, the size of the public safety community 
is routinely described as consisting of about three million 
first responders and, you know, if we look at a smaller subset, 
maybe a half a million or so that actually are in the field and 
are in need of mobile communications. So I am just curious, why 
is Verizon's 22 megahertz of the 700 megahertz spectrum 
sufficient to launch its 4G LTE service to 100 million 
subscribers, yet you need almost that same amount for public 
safety? Why is that?
    Mr. Steinberg. Thank you for the question, Congressman. 
There are several reasons why that is different. We are really 
kind of somewhat comparing apples to oranges here if I may. The 
public safety networks are built to be ultimately resilient and 
reliable such that even if the complete network has failed, the 
devices can communicate with each other. That is part of the 
reason for the additional cost that was alluded to earlier in 
the handsets. They are engineered to a different grade of 
service, a different resiliency. So the way that they use the 
spectrum and the mode of communication is considerably 
different. The network service level that it is engineered to 
is considerably higher, especially from a coverage point of 
view and a grade of service that it provides to the end users 
overall.
    Mr. Doyle. Dr. Martinez, do you have any----
    Mr. Martinez. You know, in scientific terms the problem is 
that communications in public safety is very lumpy in time and 
space. A good day is not when you use the spectrum efficiently; 
i.e., you are utilizing it heavily. That is a bad day. That 
means lots of things are going wrong. You can't apply the same 
metrics to the spectrum efficiency utilization in a commercial 
carrier network that public safety has. The issue in public 
safety is not one of global capacity. It is when an incident 
happens, you need localized, high-capacity communications. And 
that is the problem. And you don't know where incidents happen, 
so therefore, we have to create that capacity everywhere 
because an event can happen anyplace, as we all know.
    Mr. Doyle. Right.
    Mr. Martinez. That is the fundamental problem in comparing 
those two business cases.
    Mr. Doyle. Thank you. Chief?
    Mr. Johnson. Congressman, I think to compare commercial and 
public safety use, I guess I would say commercial systems are 
more likely to have broad use throughout the community. When 
public safety needs a network, it is very likely to just 
overwhelm a single site. When you land a plane in the Potomac, 
that is not going to do much for us in New England. That is 
going to light up that cell site and all the cell sites around 
it. And the capacity is required to move that amount of traffic 
at that site, and that site could be about anywhere in the 
Nation. And I think the network engineers and architects could 
attest to why you need that much from an engineering 
perspective. As a practical perspective, you need that much 
because when we need it, we need it.
    Mr. Doyle. Thank you very much. Mr. Chairman, thank you so 
much.
    Mr. Walden. Mr. Hanley, did you have something you wanted 
to add?
    Mr. Hanley. I just wanted to add public safety networks are 
engineered for the peak demand at its given time and place and 
that is really one of the strongest arguments for making sure 
that we have a mechanism for commercial utilization because 
while you are engineered for the peak and you are going to 
have----
    Mr. Walden. Right.
    Mr. Hanley. --incidents--you are going to have a lot of 
spare capacity most of the time. We need to make sure that is 
used effectively.
    Mr. Walden. Well, I think that is part of our discussion 
here is how often do you need that 10--you need it when you 
need it, but how often is it just going to sit there fallow and 
are there other uses during that period? Yes, well, I guess I 
am chairman. Dr. Martinez?
    Mr. Martinez. And the problem is that if you try to use 
that capacity for commercial purposes, you devalue its 
commercial value----
    Mr. Walden. Right.
    Mr. Martinez. --because it is subject to preemption. When 
you need it in an event, a horrific event, then you will have 
commercial users trying to communicate on a network that is 
overwhelmed with public safety----
    Mr. Walden. But it doesn't----
    Mr. Martinez. That was the lesson learned from the D Block.
    Mr. Walden. Well, that and the way it was structured and 
the unknowns. You buy it and then we will tell you what you 
have to do.
    Mr. Martinez. Certainly as well.
    Mr. Walden. I am going to get myself in trouble with my 
colleagues here again. Mr. Bilbray, I think you are up next.
    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate you 
clarifying it. One of the big problems with the D Block is 
nobody knew what they were buying, you know, especially when 
you have other commodities on the market and that lack of 
definitive explanation of what you were buying for your 
constituency, you know, wasn't there.
    I appreciate Mr. Steinberg being here because I just 
remember 20 years ago we were putting in a unified system for a 
county of three million people with federal and state agencies 
in there down in San Diego, so I appreciate you bringing that 
up. But I think that we have got some real challenges, and I 
think a lot of it is not just technology. A lot of it is 
mindset. I remember being mayor of a small city of 30,000, we 
had a dispatcher for the police department, one for the fire 
department, one for the public works, and one for the 
lifeguards. You know, but each one of them had to have their 
own little pie.
    Chief, your comment about the need to have the private 
sector at the table I think is quite appropriate, though, 
understanding that those of us in government who use the system 
won't even know what is possible if we do not have those guys 
at the table, right?
    Mr. Johnson. That is correct, Congress. That is our view.
    Mr. Bilbray. Now, my question is we do have a vehicle--and 
maybe I am dating myself--by the Disaster Preparedness Councils 
in every region is sort of the hybrid between a local, 
regional, and fed because it is actually a federally mandated 
agency that really works with these problems. In fact, I think 
that was really the key in San Diego we used to put it 
together. Maybe that is a component of a hybrid between the 
federal, local, and regional that needs to be considered of 
rather than reinventing the wheel, take a look at what we have 
restructured, used again, and move forward. A comment about 
that, Chief?
    Mr. Johnson. Sir, I am really not very familiar with who 
comprises that. I guess I would say it is important at the 
national level and at the local level, whatever that is, that 
you have people on there that understand public safety and they 
understand networks. And I think the same mix we talked about 
has to be present at the local level as well because a network 
operation is, after all, what we are after.
    Mr. Bilbray. And that is really a challenge because those 
two disciplines don't tend to meet very often.
    Question, Mr. Hanna. We have allocated the 4.9 megahertz. 
Should public safety be using that spectrum as part of this 
solution?
    Mr. Hanna. Oh, absolutely. As Chief Johnson said, at this 
time, 4.9 is not really optimum spectrum for any type of broad-
based application. It certainly has great potential for 
offloading traffic in hotspot-type zones. It has backhaul 
provisions. In some areas, it is used widely. In many areas, it 
is not used much at all. And I think there are a couple of 
studies that have shown that 4.9, you know, if paired with this 
network certainly can enhance the spectrum that we already 
have. So I think if we just take a look at how we reengineer 
that and build that into the network, I think we have great 
application for that.
    Mr. Bilbray. OK. Let me sort of throw something out, too. 
Mr. Hanley, you are probably the youngest one on the panel, 
wouldn't you guess? What do we got? How old are you?
    Mr. Hanley. Forty-four.
    Mr. Bilbray. OK. Is he the youngest, guys? OK. I just think 
it is appropriate we bring up these items that we don't like to 
talk about in proper company, but Chief, can we admit that 
there may be a whole generational gap that we are ignoring here 
and that is with data? I think you and I know we grew up not 
texting our friends, not being comfortable in the text and the 
data file, but I see that like the cruisers that we put 
computers in, we never implemented the swipe card technology, 
though it was there, you know, back when we were implementing 
systems in the late '70s, early '80s. Don't you think that 
there may be a heck of a lot more opportunity for data to be 
used in public safety than what we accept now just because we 
have always been used to grabbing that mike on our sleeve and 
talking into it, and especially with the next generation who is 
coming in with a whole new set of tools. These are videogame 
kids that are flying Predators now, and I think just as much as 
the old army didn't accept the Predator, now we embrace it. I 
think there is a real challenge for all of us to sort of look 
over the horizon and be able to see what the next generation 
may take of this.
    Mr. Johnson. Congressman, your observations are quite 
insightful. The young firefighters we are hiring today are 
astonished at the lack of technological capability that we 
have. And the reality is is that because we don't have a 
mission-critical grade data network today, it really is 
impeding efficiencies. And I will be specific. If you don't 
have the ability to receive and transmit GPS or automatic 
vehicle location data in the field, then you can't efficiently 
deploy your resources, which means that you deploy them 
statically and you have holes that pop up and you have no way 
to sense that and adjust to it.
    Secondly, just even things like controlling traffic signals 
as opposed to using light to get close to it and turn the 
signal. The system ought to be able to sense we are coming, it 
ought to know where we are going, and it ought to clear the 
route and heal the route as we pass through it. I think, you 
know, the networks that we deal with, the commercial partners, 
they are quick to tell you that in the last 5 years, they have 
grown between 5,000 and 8,000 percent in terms of throughput of 
data on their networks. The same thing is going to happen in 
public safety because the industry has not yet fathomed what 
public safety needs and designed aggressively to it because we 
don't have a network to put it on.
    And I think you are correct in assuming that we are going 
to see some amazing evolutions in terms of the technology 
brought to public safety.
    Mr. Bilbray. Thank you, Mr. Chairman. I just want to make 
sure that as we move forward with a national upgrade that we do 
not continue to try to apply an alpha code in the world of GPS. 
And for those of you who don't know alpha code, you can go back 
and study Lord Nelson and everything else. Thank you.
    Mr. Walden. I didn't know you knew him. OK. And I just want 
to say, Mr. Johnson, I think you are right on target, and this 
is what we are trying to capture is that innovation and not 
have an isolated network that fails to capture that. So we are 
just trying to figure out how to get there because my iPhone, I 
can plug in a coordinate and up comes the GPS and it walks with 
me through town. There is ability there.
    I am going to go Mr. Gingrey and that I think is our last 
on the panel.
    I will just tell you in advance and not on Mr. Gingrey's 
time, we have got a whole bunch of questions. Remarkable panel, 
thank you for your testimony. And we are going to submit those 
because they do require longer answers than we have time for 
today and I will do so formally later. But thank you.
    Mr. Gingrey?
    Dr. Gingrey. Mr. Chairman, thank you, and I agree. We do 
have an excellent panel. Unfortunately, I have been going back 
and forth between this committee and another subcommittee 
hearing a markup. That happens a lot up here and I apologize 
for that. But you have done a great job and we appreciate you 
being here.
    Mr. Hanna, I am going to turn to you first. How important 
is it that public safety partners with commercial providers if 
we are going to accomplish these goals that we all agree we 
need to accomplish?
    Mr. Hanna. I appreciate that question. When I first started 
working with this issue about 6 years ago, I came to public 
safety talking about broadband on the basis of that 
relationship between commercial and public safety. I think it 
is only through that relationship, particularly where you have 
the economies of scale and the broader ecosystem that we really 
take full advantage of what this has to offer. So I think that 
element is really paramount to the success of this network.
    Dr. Gingrey. Thank you. And let me go to Mr. Steinberg, Dr. 
Martinez, and Mr. Hanley, and all three of you can respond. How 
soon will voiceover internet protocol over LTE be available? 
Are we talking 1 year, 2 years, 3 years? How soon could public 
safety migrate from narrowband and utilize broadband for the 
entire 24 megahertz, the DTV legislation cleared for public 
safety?
    Mr. Steinberg. I will start if you don't mind.
    Dr. Gingrey. Yes.
    Mr. Steinberg. Thank you for a very insightful question. 
That is one that goes around a lot. It is difficult to predict 
exactly when but let me talk to some of the things that have to 
occur. Moving voice to broadband, commercial-grade voice, which 
I think you will see carriers start to do. I have seen an 
announcement even from one carrier recently that they are 
heading in that direction in 2012. The difficulties of 
transcending that to public-safety-grade mission-critical 
voice, there are a few things we have to overcome to make that 
occur. Most of them are nontechnical.
    One is we need an interoperable standard. There is no 
standards body in place today that specifies push-to-talk, 
mission-critical voice type communications. So we would want 
that in place and we want to make sure that we create 
interoperability.
    Two is we have to make sure that the network is built out 
to the coverage requirements that are necessary to support 
mission-critical-grade voice.
    Three, there are few things in 3GPT standards, nothing 
major, that have to occur to support that to actually function 
properly.
    And then four is we have to actually make sure that once we 
get there, we truly do achieve interoperability, but not just 
for voice. We need to think about, as I think the previous 
question was instructive, about push to X, push to media, so 
that are thinking about not just the past but we are thinking 
about the future as well.
    So how long will that take is difficult to answer. I heard 
answers earlier in the 5- to 10-year range, perhaps while you 
were out of the room. That is probably not unrealistic 
considering the maturation that will be required to achieve 
mission-critical-grade push-to-talk.
    Dr. Gingrey. Let us have Dr. Martinez and Mr. Hanley 
quickly.
    Mr. Martinez. Yes. Congressman, we at Harris have been 
delivering mission-critical voice over IP for over a decade. We 
understand how to do that. We understand, too, Mr. Steinberg's 
point that there is work to be done in developing of standards. 
We believe the technology is here today to do that. We believe 
it will take time to further develop the devices and to the 
right form factors for our first responders and other public 
safety organizations, but we believe that is going to take 
about 2 to 3 years. We believe there is a point where you have 
to mature the technology Chief Johnson made reference to 
earlier. We must do this in a responsible manner.
    I would say from an operational perspective, we are 
probably 3 to 5 years away from that being an effective tool in 
the field.
    Dr. Gingrey. Mr. Hanley, would you tend to agree with that?
    Mr. Hanley. I do agree with that. I think that we need a 
resilient network that will support mission-critical 
applications and we need voice quality that is acceptable. And 
that is the time frame that is appropriate.
    Dr. Gingrey. I will continue with Dr. Martinez and Mr. 
Steinberg in my final question. Some have criticized the public 
safety equipment community for using a narrow definition of 
interoperability. How do you define interoperability? And would 
your definition permit seamless use of competitors' public 
safety radios with your company's network elements?
    Mr. Martinez. Mr. Congressman, as I have testified earlier, 
I believe we have addressed interoperability from a technical 
and operational perspective, yes indeed. We believe that the 
definition of interoperability really is the notion that you 
can procure interchangeable equipment. Your own experience in 
the use of cell phones and Wi-Fi devices, you already 
understand this. You purchase it with confidence that it is 
going to work. No matter which cell phone manufacturer I 
purchase from or which operator I operate on, we have the 
ability to communicate. We can text, we can send images, and so 
on and so forth. Those are fully interoperable systems but they 
are built on a base of interchangeable devices and 
technologies. We believe that is the model going forward in how 
we are going to achieve interoperability is to enforce the 
procurement process to implement that model.
    Mr. Steinberg. And if I could just amplify a bit.
    Dr. Gingrey. Yes, please.
    Mr. Steinberg. I believe Dr. Martinez spoke correctly that 
I believe today we have the interoperable standards of the P25 
APCO standards that allow this to occur. Interoperation does 
occur on networks today between competitive handsets and 
networks. I would just offer as well that Motorola solutions 
offers at no charge to our competitors or other suppliers of 
equipment an interoperability test facility that they may bring 
the devices into and validate that they conform and work.
    Dr. Gingrey. Thank you all. And Mr. Chairman, I yield back.
    Mr. Walden. Recognize the gentleman from Louisiana.
    Mr. Scalise. Thank you, Mr. Chairman.
    Mr. Steinberg, given that the absence of a nationwide 
network both since September 11 as well as we experienced with 
Hurricane Katrina, a time consideration clearly is going to 
have to be a consideration in all of this. One of the things I 
want to ask from a technical standpoint, what would promote a 
quicker deployment of a nationwide network? Reallocating an 
additional 10 megahertz to public safety for a new build-out or 
supplementing public safety's existing spectrum working with 
commercial providers to create that existing network?
    Mr. Steinberg. That is an excellent question and thank you 
for the opportunity to address it.
    I think there are several factors that have to go into 
achieving what you stated is an excellent goal. First, I do 
believe that one of the problems we spoke of earlier that has 
contributed to interoperability issues is the hodgepodge or the 
fragmented spectrum that public safety has accumulated over the 
years. So that is one of the reasons why we do face an 
opportunity with the 700 megahertz spectrum band and the 
opportunity to reallocate the D Block if we can work out all of 
the other logistics to go with that to create a nice wide swath 
of spectrum that everybody can operate upon in a consistent 
fashion.
    To your question about what actually gets us there quicker, 
I think it is a combination of really both factors that have to 
be brought to bear to actually move us along in that direction.
    Mr. Scalise. All right. Mr. Hanna, from what I have been 
hearing and, you know, whether it is testimony here just 
talking with various groups, there are a number of ways to 
achieve interoperability and I think some have been touched on 
today, but if you could talk to me about the benefits of 
creating a nationwide interoperable system in connection with 
commercial spectrum in the 700 megahertz band as proposed by 
the President's National Broadband Plan.
    Mr. Hanna. Well, the concept is if you're working on a 
common platform, which is the LTE platform, if you have the 
network sharing agreements, then you have the ability to roll 
over from one network to the other. So you are simply taking 
advantage of each other's spectrum in that regard. And what we 
have talked about earlier is on a day-to-day basis, public 
safety does not need the entire block of spectrum. So on those 
days that you have the bad days that were mentioned earlier, 
then you can move into that spectrum, that commercial spectrum, 
and vice versa in some circles as some people proposed. So I 
think in that regard, you know, you are making maximum use. It 
is good stewardship of the spectrum that we have.
    Mr. Scalise. Do you have an idea of both low end and high 
end when there is low utilization, high utilization how much 
spectrum would be covered on each of those extremes?
    Mr. Hanna. I don't think I could be in a position to tell 
you, you know, how many megahertz we are going to be using in a 
given day. That is a bit outside my expertise.
    Mr. Scalise. OK. I don't know if anybody else----
    Mr. Hanley. Let me just say it is a function also of how 
densely the cell sites are architected as well, how much 
capacity is deployed in a given location. So without seeing an 
architectural design, it is hard to comment on that.
    Mr. Scalise. Yes, and I know that is----
    Mr. Hanley. I think you probably can use all the capacity 
in a serious emergency concentrated time and place. You are 
going to have a lot of times when you are using much less than 
that.
    Mr. Scalise. Yes, and I think that is one of the things 
that the chairman talked about at the outset of the hearing is 
the importance of putting a real structure in place so that you 
are not just throwing money and maybe underutilizing spectrum, 
not using it to the best of our ability when it is such a 
scarce resource so that we can get the best bang for our buck 
but also push those timelines so that we are not facing the 
10th anniversary of whether it is September 11 or Katrina or 
some other disaster and you still don't have that 
interoperability where we can best achieve that goal.
    Thank you, Mr. Chairman. I yield back.
    Mr. Walden. I thank the gentleman. We recognize, now, the 
gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. Let me also--I didn't 
get a chance to welcome Dr. Martinez who is from a company in 
Florida, Harris Corporation. He is the CTO. I have had the 
experience of touring Harris, and actually, when I was an Air 
Force officer when it was Radiation Incorporated I used to come 
in there and fly and accept satellite ground stations for the 
Strategic Air Command. So I want to welcome Dr. Martinez.
    And one thought I was thinking about is assuming--in your 
mind, what government oversight should there be to make the 
interoperable system work? Maybe you can give us some ideas on 
that, what oversight should be done.
    Mr. Martinez. We, of course, recognize that this network 
will serve federal, state, local, and tribal organizations. 
Clearly, they all have to participate in a significant way in 
the governance structure, however it evolves. It is important 
that we don't get to a point that those organizations find 
themselves looking at the structure from the outside in. They 
have to be part of it, a fundamental part of it.
    The National Broadband Plan articulated that 3 
organizations in particular that were important: the Federal 
Communications Commission and what it is doing, the Department 
of Commerce, and the Department of Homeland Security. We 
believe those three organizations must continue to play a 
significant role and collaboration in defining the structure, 
however it emerges. And those organizations continue to provide 
oversight from regulatory perspective, from policy perspective. 
But ultimately, we need to assure that those organizations, the 
stakeholders are able to perform the day-to-day governance 
functions.
    Mr. Stearns. What would be the worse fear, the worst thing 
that you would be concerned about?
    Mr. Martinez. That is a great question. My worst fear is 
this issue of economic viability. And I touched upon it very 
briefly. We must ensure that this network remains economically 
viable. And that means two things: that it is cost-effective 
and affordable and that we never put it into a position where 
we are unable to sustain it. And so I would say that my biggest 
concern today would be that we wouldn't make the full 
commitment to ensure that it remains adequately funded and that 
we make the commitment to ensure that we are funding it 
correctly.
    And I have made the point repeatedly that we have to 
procure it in a responsible way that allows for innovation and 
competition and multi-sourcing we believe is the key vehicle.
    Mr. Stearns. Anyone else on the panel who would like to 
comment, perhaps what their worst fears are or what the role of 
oversight should be on the interoperable system? Anyone else? 
Yes, sir, Mr. Hanna?
    Mr. Hanna. On the governance model, you know, I have had a 
chance to look at great detail at the proposal you mentioned 
earlier that has been presented to Senate. I would say that 
while I am not enamored with all the provisions of the bill, I 
am highly impressed with the governance model that they have 
laid out in that document so far.
    I am not quite sure if the rest of my panel shares my 
concerns. I have deep concerns about a governance model run 
strictly by the government because I think our record in that 
area is rather replete with not being the most successful 
models. And I think my public safety counterparts would agree 
that a model run purely by public safety, you know, not 
including people from industry and those people who are paying 
for it also has its issues. So I would say that the model that 
I have seen so far in Senator Rockefeller's bill or the draft 
that has been presented I find I like it very much.
    Mr. Stearns. Mr. Hanna, let me just follow up with a 
question for you. We have provided the first responders with 
approximately 13 billion in federal funding over the last 
decade, as well as approximately 100 megahertz of spectrum for 
their exclusive use. Where have those resources gone? What 
worked, what didn't, and why?
    Mr. Hanna. Well, that question has been--we have partially 
addressed that. I mean, one of the unfortunate things is that 
it has gone many places, and that is part of our problem. It 
has been put out in piecemeal, fragmented basis. I would say we 
have had a lot of jurisdictions who have received a lot of that 
money. They have put it to good use in their local 
jurisdiction. There has been no requirement, though, that they 
have interoperability with others. And I would also suggest 
that, you know, we have enabled--the Congress has enabled this 
process by, you know, many times we kneejerk to a situation. 
After 9/11 we put a great deal of money on the table, which was 
admirable to respond to a need, but I don't know that it was 
put out, you know, with the planning that was needed to ensure 
a unified approach.
    So I think the very fragmented nature of public safety 
communications, we have soaked that in, it has been used 
locally, but we haven't had the coordination that we would like 
to see out of this bill.
    Mr. Stearns. Mr. Chairman, I was just going to ask that 
same question to Chief Johnson if I could.
    Mr. Johnson. Thank you, Congressman. I think it has mostly 
been spent looking backwards, but I think there has been 3 
causal areas. One, interoperability, which everyone talks 
about, and we use the name to do other things. I think there 
has been plenty of this money spent on core operability and 
buying equipment for core operability that is interoperable-
capable and therefore met the terms of the grant requirements, 
for example.
    And I think, second, the Federal Government has had a 
little piece of responsibility here in that as we ask all the 
public safety responders in the Nation to narrowband their 
radios, for many of them, if not most of them, that meant a 
wholesale replacement of their radios. So when you are facing a 
wholesale requirement to replace your entire radios--
mountaintop, handheld, mobile, et cetera--to meet the 
narrowbanding requirement, then you start looking for money. 
And that money is either some of it earmarked for 
interoperability, which you can do on your path to 
narrowbanding, and some of it operability with interoperable-
capable. And I think it is worth adding that one of the 
benefits for the Federal Government in narrowbanding is they 
recapture the spectrum that is left behind when you narrow that 
band. That band, I assume, will at some point in time be 
repackaged, reformed at auction and in part offset some of the 
expenses that have been made in this area.
    Mr. Stearns. Good. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Stearns. Gentleman, we really 
appreciate your testimony, your insights. As I mentioned 
earlier, we will have some additional questions we would 
appreciate your response to. And I think I can speak on behalf 
of the whole subcommittee how impressive this panel has been 
and how helpful in our work you have been. And we look forward 
to continuing the conversation as we work to get it right this 
time and make sure that you have the interoperable network that 
you need at a price we can afford and that we are maximizing 
use of the spectrum along the way.
    So thank you all, and with that, the subcommittee stands 
adjourned.
    [Whereupon, at 12:37 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Cliff Stearns

    Thank you, Mr. Chairman. I'd like to thank you for holding 
this important hearing and all our witnesses for sharing their 
insights, particularly Mr. Martinez, CTO of Harris Corp., which 
is based in Florida.
    With the ten-year anniversary of September 11th quickly 
approaching, the time is now for Congress to act towards 
creating an interoperable public safety network.
    In the DTV legislation we cleared spectrum in the 700 MHz 
band, known as the D Block, to be auctioned for commercial use. 
Against my objections, the FCC moved forward with a conditioned 
auction that, as I predicted, resulted in no bidders showing 
up.
    The D Block now sits fallow and valuable spectrum goes 
unused while we face a looming spectrum crunch. I look forward 
to hearing the testimonies of our witnesses as we explore the 
best and most cost-efficient way to utilize the D Block and 
build an interoperable public safety network.
                              ----------                              


               Prepared statement of Hon. John D. Dingell

    Thank you, Mr. Chairman, for holding this important 
hearing. I would also like to extend a warm welcome to our 
witnesses this morning. Thank you for appearing before the 
Committee to give testimony and answer our questions.
    The problems with constructing a national interoperable 
public safety network are not new. The debate about whether it 
is better to reallocate or auction the D Block also has become 
alarmingly long in the tooth. In brief, we have made precious 
little progress since 9/11 in improving the resources available 
to first responders.
    I intend to use this morning's hearing to productive ends. 
I will ask our witnesses questions about reallocating the D 
Block and how to guarantee public safety has the resources with 
which to construct and maintain a national interoperable 
network. I also welcome our witnesses' opinions about how to 
make certain cash-strapped municipalities do not face undue 
burden in modernizing their communications equipment and 
infrastructure, as well as how to strike an appropriate balance 
between broadband and broadcast media in times of emergency.
    I note that there are a number of public safety bills 
circulating Congress. Many of them would reallocate the D Block 
and pay--at least partially--for the construction and 
maintenance of a public safety network by allowing the Federal 
Communications Commission to conduct voluntary incentive 
auctions of broadcast spectrum. I am deeply suspicious of what 
the Commission would do with broad authority to conduct 
incentive auctions. As such, I will not consider granting the 
Commission that authority until the Commission has explained 
sufficiently to this Committee how it would use it.
    I look forward to a productive hearing and yield back the 
balance of my time.
                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
